<html>
<title> - HISTORIC PRESERVATION VS. KATRINA: WHAT ROLE SHOULD FEDERAL, STATE AND LOCAL GOVERNMENTS PLAY IN PRESERVING HISTORIC PROPERTIES AFFECTED BY THIS CATASTROPHIC STORM?</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]




 
HISTORIC PRESERVATION VS. KATRINA: WHAT ROLE SHOULD FEDERAL, STATE AND 
 LOCAL GOVERNMENTS PLAY IN PRESERVING HISTORIC PROPERTIES AFFECTED BY 
                        THIS CATASTROPHIC STORM?

=======================================================================

                                HEARING

                               before the

                       SUBCOMMITTEE ON FEDERALISM
                             AND THE CENSUS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                            NOVEMBER 1, 2005

                               __________

                           Serial No. 109-110

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
25-541                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
CHRISTOPHER SHAYS, Connecticut       HENRY A. WAXMAN, California
DAN BURTON, Indiana                  TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
GIL GUTKNECHT, Minnesota             CAROLYN B. MALONEY, New York
MARK E. SOUDER, Indiana              ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
TODD RUSSELL PLATTS, Pennsylvania    DANNY K. DAVIS, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
JOHN J. DUNCAN, Jr., Tennessee       DIANE E. WATSON, California
CANDICE S. MILLER, Michigan          STEPHEN F. LYNCH, Massachusetts
MICHAEL R. TURNER, Ohio              CHRIS VAN HOLLEN, Maryland
DARRELL E. ISSA, California          LINDA T. SANCHEZ, California
JON C. PORTER, Nevada                C.A. DUTCH RUPPERSBERGER, Maryland
KENNY MARCHANT, Texas                BRIAN HIGGINS, New York
LYNN A. WESTMORELAND, Georgia        ELEANOR HOLMES NORTON, District of 
PATRICK T. McHENRY, North Carolina       Columbia
CHARLES W. DENT, Pennsylvania                    ------
VIRGINIA FOXX, North Carolina        BERNARD SANDERS, Vermont 
JEAN SCHMIDT, Ohio                       (Independent)
------ ------

                    Melissa Wojciak, Staff Director
       David Marin, Deputy Staff Director/Communications Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel

               Subcommittee on Federalism and the Census

                   MICHAEL R. TURNER, Ohio, Chairman
CHARLES W. DENT, Pennsylvania        WM. LACY CLAY, Missouri
CHRISTOPHER SHAYS, Connecticut       PAUL E. KANJORSKI, Pennsylvania
VIRGINIA FOXX, North Carolina        CAROLYN B. MALONEY, New York
------ ------

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
                     John Cuaderes, Staff Director
                          Jon Heroux, Counsel
                         Juliana French, Clerk
            Adam Bordes, Minority Professional Staff Member


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on November 1, 2005.................................     1
Statement of:
    Holmes, H.T., director, Mississippi Department of Archives 
      and History; Mitchell J. Landrieu, Lieutenant Governor, 
      State of Louisiana; Derrick Evans, founder/director, Turkey 
      Creek Community Initiatives; Patricia H. Gay, executive 
      director, Preservation Resource Center of New Orleans; and 
      David Preziosi, executive director, the Mississippi 
      Heritage Trust.............................................     4
        Evans, Derrick...........................................    31
        Gay, Patricia H..........................................    36
        Holmes, H.T..............................................     4
        Landrieu, Mitchell J.....................................    18
        Preziosi, David..........................................    59
    Nau, John L., III, chairman, Advisory Council on Historic 
      Preservation; Janet Matthews, associate director for 
      cultural resources, National Park Service; Richard Moe, 
      president, the National Trust for Historic Preservation; 
      and Norman L. Koonce, executive vice president and CEO, the 
      American Institute of Architects...........................    88
        Koonce, Norman L.........................................   113
        Matthews, Janet..........................................    97
        Moe, Richard.............................................   106
        Nau, John L., III........................................    88
Letters, statements, etc., submitted for the record by:
    Dent, Hon. Charles W., a Representative in Congress from the 
      State of Pennsylvania, prepared statement of...............    79
    Evans, Derrick, founder/director, Turkey Creek Community 
      Initiatives, prepared statement of.........................    33
    Gay, Patricia H., executive director, Preservation Resource 
      Center of New Orleans, prepared statement of...............    38
    Holmes, H.T., director, Mississippi Department of Archives 
      and History, prepared statement of.........................     6
    Koonce, Norman L., executive vice president and CEO, the 
      American Institute of Architects, prepared statement of....   115
    Landrieu, Mitchell J., Lieutenant Governor, State of 
      Louisiana, prepared statement of...........................    21
    Matthews, Janet, associate director for cultural resources, 
      National Park Service, prepared statement of...............    99
    Moe, Richard, president, the National Trust for Historic 
      Preservation, prepared statement of........................   108
    Nau, John L., III, chairman, Advisory Council on Historic 
      Preservation, prepared statement of........................    91
    Preziosi, David, executive director, the Mississippi Heritage 
      Trust, prepared statement of...............................    61


HISTORIC PRESERVATION VS. KATRINA: WHAT ROLE SHOULD FEDERAL, STATE AND 
 LOCAL GOVERNMENTS PLAY IN PRESERVING HISTORIC PROPERTIES AFFECTED BY 
                        THIS CATASTROPHIC STORM?

                              ----------                              


                       TUESDAY, NOVEMBER 1, 2005

                  House of Representatives,
         Subcommittee on Federalism and the Census,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:01 a.m., in 
room 2154, Rayburn House Office Building, Hon. Michael R. 
Turner (chairman of the subcommittee) presiding.
    Present: Representatives Turner, Dent, and Foxx.
    Also present: Representative Melancon.
    Staff present: John Cuaderes, staff director; Jon Heroux, 
counsel; Peter Neville, fellow; Juliana French, clerk; Adam 
Bordes, minority professional staff member; and Cecelia Morton, 
minority office manager.
    Mr. Turner. Good morning. A quorum being present, this 
hearing of the Subcommittee on Federalism and the Census will 
come to order.
    Welcome to the subcommittee's hearing entitled, ``Historic 
Preservation vs. Katrina: What Role Should Federal, State and 
Local Governments Play in Historic Preservation Properties 
Affected by this Catastrophic Storm?''
    As we all know, Hurricane Katrina slammed into the gulf 
coast on August 29, 2005, heavily damaging the entire region. 
The storm will be the costliest in U.S. history, and maybe the 
greatest natural disaster ever to hit our Nation. The first 
priority, of course, is rebuilding the lives, communities, and 
businesses impacted by the storm. Nonetheless, historic 
preservation should be part of our response, both as an 
economic revitalization tool and to save our historic legacy.
    From a historical perspective, the gulf coast region is one 
that is abundant in national treasures. For example, it is the 
site of numerous ancient Native American mounds and structures, 
it is the site of many remnants of the Nation's colonial roots. 
It is a memory of a time when Louis XIV first determined that 
the French should have a stake in the new world. It is an 
example of the former glory of Spain, and it is rich in African 
American history and culture. It is the birthplace of jazz and 
Mississippi Delta blues. It is a place of tradition and beauty. 
It is nothing less than a showcase of not only our national, 
but of world history.
    The destruction of historic properties has been massive. 
The numbers are staggering because the gulf coast region has 
one of the Nation's highest concentrations of historic 
structures. Historically important properties can be found 
throughout the hurricane-impacted area, and thousands of them 
are at risk of being lost forever.
    Federal, State and local governments, as well as the 
nongovernmental associations, need to coordinate a timely, 
sufficient, targeted response to this historic preservation 
disaster. Time is an issue. Historically important structures 
have already been torn down, and structures that can be saved 
must be stabilized before they too are lost forever. There is 
hope. The infrastructure needed to implement historic 
rehabilitation programs is already in place. The National 
Historic Preservation Act of 1966 created a strong Federal 
preservation program which is administered by the Department of 
the Interior. This program relies heavily on the State Historic 
Preservation Offices and their local partners.
    Even though the National Historic Preservation Act has a 
built-in infrastructure to deal with saving our historical 
structures, Hurricane Katrina was so massive and widespread 
that we need to explore additional ways to ensure that historic 
preservation is a priority. A coalition of national 
preservation organizations, led by the National Trust for 
Historic Preservation and the American Institute of Architects, 
have proposed a legislative package for preservation efforts in 
the disaster area. The package proposed using the existing 
structure to provide new grants, tax credits, and waivers as 
incentives to restoring historic properties damaged by the 
hurricane.
    Today's hearing will explore the roles of the Federal, 
State and local governments in responding to Katrina, the 
legislative package proposed by the National Trust and the 
American Institute of Architects, and other recommendations.
    To help us address these issues, we have nine distinguished 
witnesses on two panels. On the first panel we will begin by 
hearing from the Honorable Mitchell Landrieu, the Lieutenant 
Governor of Louisiana, who I understand is going to be late 
today, will share his State-level perspective, and we will 
recognize him when he joins us. We will then hear from Mr. H.T. 
Holmes, director of the Mississippi Department of Archives and 
History, which has responsibility for Mississippi historic 
properties.
    We will next hear from Derrick Evans, founder and director 
of the Turkey Creek Community Initiative in Mississippi, 
recognized in 2001 as 1 of Mississippi's 10 most endangered 
historical places. The Turkey Creek Estuary was settled after 
the Civil War by African-American freed men. Mr. Evans has been 
working to protect the historic Turkey Creek area from urban 
sprawl, and is now working to recover from Katrina.
    We will then hear from Patricia Gay, Executive Director of 
the Preservation Resource Center of New Orleans. Prior to 
Hurricane Katrina, Ms. Gay focused her work on revitalizing New 
Orleans historic neighborhoods, and now her challenge has taken 
a new course.
    We will then hear from Mr. David Preziosi, executive 
director of the Mississippi Heritage Trust, where we will learn 
of his efforts of assessing the damage to historic properties 
in Mississippi.
    On the second panel we have four distinguished witnesses. 
First we will hear from John Nau, chairman of the Advisory 
Council on Historic Preservation, which advises the President 
and Congress on national historic preservation policy.
    We will then hear from Dr. Janet Matthews, Associate 
Director for Cultural Resources at the National Park Service 
which administers the Federal Historic Preservation program.
    Then we will hear from Richard Moe, president of the 
National Trust for Historic Preservation, who will address 
their efforts in the Katrina response in the proposed 
legislative package.
    And finally, we will hear from Norman Koonce, executive 
vice president and CEO of the American Institute of Architects, 
who will tell us of their response efforts and the legislative 
package they have proposed.
    I look forward to the expert testimony on our distinguished 
panel of leaders and what they will provide us today, and I 
want to thank each of you for your time and welcome you.
    I will now recognize Virginia Foxx and appreciate your 
attendance today.
    Ms. Foxx. Thank you, Mr. Chairman. I'm looking forward to 
hearing the comments here.
    My husband and I have been involved a little bit in some 
historic preservation, although we don't talk about it a lot, 
and love to see older buildings and facilities preserved and 
enhanced. And so I look forward to hearing the comments today 
and thank all these folks for being here today.
    Mr. Turner. We will now hear from the witnesses. Each 
witness has kindly prepared written testimony which will be 
included in the record of this hearing. Witnesses will notice 
that there is a timer light at the witness table. The green 
light indicates that you should begin your prepared remarks, 
and the red light indicates that time has expired. The yellow 
light will indicate that you have 1 minute left in which to 
conclude your remarks.
    It is the policy of this committee that all witnesses be 
sworn in before they testify. If all witnesses would please 
rise and raise your right hands.
    [Witnesses sworn.]
    Mr. Turner. Let the record show that all witnesses have 
responded in the affirmative.
    And we will begin with Mr. Holmes. If you will turn on your 
mic, there is a button at the bottom. And again, we will begin 
with 5-minute rounds of comments. So if you will summarize your 
written testimony, and then subsequent to the presentation of 
your testimony we will enter into a round of questions from the 
Members.
    Mr Holmes.

STATEMENTS OF H.T. HOLMES, DIRECTOR, MISSISSIPPI DEPARTMENT OF 
    ARCHIVES AND HISTORY; MITCHELL J. LANDRIEU, LIEUTENANT 
GOVERNOR, STATE OF LOUISIANA; DERRICK EVANS, FOUNDER/DIRECTOR, 
TURKEY CREEK COMMUNITY INITIATIVES; PATRICIA H. GAY, EXECUTIVE 
  DIRECTOR, PRESERVATION RESOURCE CENTER OF NEW ORLEANS; AND 
 DAVID PREZIOSI, EXECUTIVE DIRECTOR, THE MISSISSIPPI HERITAGE 
                             TRUST

                    STATEMENT OF H.T. HOLMES

    Mr. Holmes. Chairman Turner, distinguished members of the 
subcommittee, I am H.T. Holmes, director of the Mississippi 
Department of Archives and History, and, as such, serve as both 
the State historic preservation officer and the State 
historical records coordinator for----
    Mr. Turner. Mr. Holmes, if I could have you pause for a 
moment; and for each of you, these mics are relatively 
directional. If you would take your mic and turn the top of it 
down so that it is pointed directly at you, great.
    Mr. Holmes. Hurricane Katrina dealt a deadly blow to more 
than 300 buildings in Mississippi that are listed in the 
National Register of Historic Places. Our current assessment 
count indicates that at least 1,000 properties were severely 
damaged, including Beauvoir, the National Historic Landmark 
home of Jefferson Davis. Unlike Beauvoir, many of these 1,000 
properties are beyond repair and will be lost. Many of the 
region's public spaces, museums, libraries, archives, city 
halls and courthouses were hit hard.
    In the days immediately following the storm, the staff of 
the Mississippi Department of Archives and History mobilized an 
all-for-salvage-and-recovery support. Teams of archivists, 
museum curators, and historic preservation specialists daily 
drove 6 to 8 hours round trip, 7 days a week, to devote 8 to 10 
hours in damaged buildings assessment and to salvage artifacts 
and documents from flooded museums, libraries, and courthouses.
    I am very proud of the Department's response effort, which 
continues even as we speak. And I am deeply grateful for the 
assistance offered by government agencies such as the National 
Historical Publication and Records Commission, and private 
organizations such as the National Trust Historic Preservation.
    What we have learned is that for publicly owned historic 
resources, emergency recovery funds are available through FEMA 
and other sources, but the historical character of this region 
depends not just on public buildings, but also on privately 
owned historic properties. The destruction of hundreds of these 
properties has unalterably changed the area's character. Almost 
immediately it became clear that many of the damaged products 
could perhaps be restored if immediate measures were taken to 
stabilize them, either by the property owner or by a local 
government entity. Sadly, no funds have been available to 
assist private property owners or local governments in 
emergency stabilization of private historic properties.
    A significant number of properties are owned by not-for-
profit groups. Many of these historical buildings housed local 
museums and archives. For emergency relief, these nonprofits go 
to the Small Business Administration for a loan. Unfortunately, 
most of these groups operate with an all-volunteer staff and a 
shoestring budget; they simply do not have the resources to 
repay a loan.
    We must now look at what remains with the new vision. New 
structures that were considered of marginal historical value 
before Katrina may now be seen as precious because they're the 
only surviving evidence of earlier times and because they are 
survivors of Katrina, Mississippi's most recent historical 
watershed. An illustration is the Turkey Creek Community that 
we have discussed--mentioned.
    The built environment there has been modified over the 
years as fortunes improved and residents were able to add to 
their homes. So according to our current interpretation of 
standards for listing a district in the National Register, 
Turkey Creek may fall short in the eyes of Federal reviewers; 
but in a broader sense, this indigenous community possesses 
tremendous historical significance. The people of Turkey Creek 
and other indigenous communities in this region stand ready to 
preserve and restore their historic properties. So do the not-
for-profit groups that operate historic sites. I hope that the 
private property owners can gain the recognition they need to 
continue their preservation work.
    In written testimony I submitted earlier, I supported the 
three major packages of points of the National Trust 
legislative package: establish historic preservation disaster 
relief grants; establish a disaster relief historic homeowner 
assistance tax credit; provide waivers to the existing historic 
preservation tax credit. These recommendations can be 
implemented within this Nation's existing historic preservation 
program.
    I would like to add a fourth recommendation, one for which 
a ready-made program does not come to mind, but nonetheless 
speaks to the heart of our efforts to preserve our history and 
culture. To assist local museums, historical societies, and 
archives operated as not-for-profit organizations, please 
ensure that FEMA has some specific authority to provide 
emergency recovery assistance for the archives, records, and 
artifacts of which these groups serve as caretakers.
    Mississippians now face a staggering task in attempting to 
rehabilitate the historic fabric that survived Hurricane 
Katrina and in recapturing the sense of place that existed in 
their communities before August 29, 2005. Those resources that 
withstood Katrina and remain today will become the symbols of 
stability and continuity around which our communities will 
rebuild. Thank you very much.
    [The prepared statement of Mr. Holmes follows:]

    [GRAPHIC] [TIFF OMITTED] T5541.001
    
    [GRAPHIC] [TIFF OMITTED] T5541.002
    
    [GRAPHIC] [TIFF OMITTED] T5541.003
    
    [GRAPHIC] [TIFF OMITTED] T5541.004
    
    [GRAPHIC] [TIFF OMITTED] T5541.005
    
    [GRAPHIC] [TIFF OMITTED] T5541.006
    
    [GRAPHIC] [TIFF OMITTED] T5541.007
    
    [GRAPHIC] [TIFF OMITTED] T5541.008
    
    [GRAPHIC] [TIFF OMITTED] T5541.009
    
    [GRAPHIC] [TIFF OMITTED] T5541.010
    
    [GRAPHIC] [TIFF OMITTED] T5541.011
    
    [GRAPHIC] [TIFF OMITTED] T5541.012
    
    Mr. Turner. At this point I'd like to acknowledge Mr. 
Landrieu, who is the Lieutenant Governor of Louisiana, who has 
joined us.
    Mr. Landrieu, we swear in our witnesses. And if you would 
please rise at this point, I will administer the oath to you 
and then we can recognize you for your testimony.
    [Witness sworn.]
    Mr. Turner. Please let the record reflect that he has 
responded in the affirmative.
    And Mr. Landrieu, if you are ready, you can begin your 
comments. You may have heard as Mr Holmes was beginning, we 
have your written testimony. We appreciate both your time with 
us today and your efforts in preparing this testimony.
    We would ask that your oral presentation be 5 minutes in 
length, and there is a timer light on the table. And then after 
everyone's testimony, we will then go to a question and answer 
period for the Members.

               STATEMENT OF MITCHELL J. LANDRIEU

    Mr. Landrieu. Mr. Chairman, members of the committee, I 
thank you for the opportunity to testify before you.
    As has been said often in the last 8 to 10 weeks, this was 
an American tragedy that requires an American response. It's a 
tragedy that had a number of different acts. The first was 
rescue. That was a very difficult task for all of us, but we 
have completed that task.
    We then went through the phase of recovery, which for those 
of us sitting at the table was very personal and very 
difficult, because many of our brothers and sisters and mothers 
and fathers and aunts and uncles did not survive this tragedy. 
We are working through that phase, but we are not quite 
complete.
    But the third part, which is what we're here to talk about 
today, is the rebuild phase. The hard work has yet to begin. 
The hard work is beginning now. Many of us said during the 
storm--and it has come to pass--that when the television 
cameras leave and the country is onto other things like Supreme 
Court nominations, other difficult issues during the day, it's 
going to be hard to stay focused on fulfilling the promise that 
President Bush made to the country that we're going to rebuild 
the gulf coast of this country, not only because it's the right 
thing to do but because it's essential.
    And as we sift through when and how and who and what, it's 
important for us to understand that everybody in the Deep South 
knows what accountability means. And the people who are most 
adamant about that are actually the people who are affected. 
And I can assure you that the people of Louisiana, Mississippi, 
and Alabama will make sure that every dollar that is sent by 
this Congress will be put on top of private investment 
insurance and the hard work and the blood, sweat, and tears of 
the people in the Deep South.
    The other thing I think is important to remember is that as 
we talk about the sense of place that Mr. Holmes talked about, 
we not only need to talk about it in terms of past history, but 
what is the future. And the fact of the matter is that food, 
music, culture, historic preservation, are not just nice things 
for people to see, but they mean business. And in the State of 
Louisiana and Mississippi, one of the things that we understand 
is that when you talk about historic preservation, you're not 
really talking about the past, you're talking about the future; 
because we have found innovative ways to restore properties, 
historic preservation, and to bring them into commerce and to 
create jobs.
    And the fact of the matter is that culture means business, 
and it also means tourism. And in Louisiana, for example, the 
tourism industry is responsible for a $9.6 billion piece of the 
economy that provides 126,000 jobs. If you define the cultural 
economy in its broader context, the food, historic 
preservation, architecture, and things of that sort, it 
provides 144,000 jobs. And so there is this wonderful 
convergence that's been taking place in the New South in the 
past 10 years as most of the people within this Nation have 
moved there. We find that people really like culture and they 
like food and they like architecture and they like historic 
preservation. And those great cities and great places in the 
world that focus on those kinds of things are finding that 
they, in fact, are more economically viable than places that 
just look like everyplace else.
    In Louisiana we have developed a rebirth plan to try to 
find a way to regrow the cultural economy. And Dick Moe and the 
National Trust for Historic Properties and the American 
Institute of Architects has partnered with us, and we adopt the 
legislation they're proposing. But in the South it's important 
for us to acknowledge a number of things: No. 1, diversity is a 
strength, not a weakness. No. 2, we have to find new ways to 
create jobs, not just relying on one industry, but on many. The 
third thing we have to do is we have to begin to think 
regionally so that we can compete globally, because it is not 
parish versus parish or county versus county, it's the Deep 
South and the New South competing with the Northeast and the 
West and in fact really, and more importantly, China.
    We also have to find ways to add value to our raw material, 
our raw data, our intellectual capital, that we have a way of 
just exporting from the Deep South to other places so that 
people can add value there and then sell it back to us. What we 
want to do in the New South is add value to our raw material 
and to our intellectual capital and sell it to the rest of 
world.
    And finally, it's important for us to really understand 
that in the New South that we talk about, where we know that 
knowledge is the currency of the new economy, we have to 
understand that it's high standards that we have to set for 
ourselves. The Southern average is not acceptable anymore 
because the Southern average, by definition, it is lower than 
the national average.
    There are those of us in the southern region of this 
country who think that we can compete nationally and 
internationally, and so what we want to do now as talk about 
rebuilding the South is to set international standards that we 
think we can hit. We are an international competitor in 
tourism, we're an international competitor in oil and gas, 
there is really no reason why we can't be an international 
competitor on anything that we set our mind to. And it's 
important for the country to recognize that people in the South 
are smart, they're tough, they're fast, they're people of 
faith, family and country, and we believe that we can compete.
    And so as we move into this rebuilding phase, let's go back 
to the past where we can create a future. How do we invest in 
our culture and our history, and how do we invest in 
technological innovation that can actually make us more of a 
unique place than we have been?
    I look forward to working with you and the committee and 
Congress to make this happen. I thank you for your time, and I 
thank you for the opportunity to rebuild one of America's great 
assets. Thank you very much.
    Mr. Turner. Thank you.
    [The prepared statement of Mr. Landrieu follows:]

    [GRAPHIC] [TIFF OMITTED] T5541.013
    
    [GRAPHIC] [TIFF OMITTED] T5541.014
    
    [GRAPHIC] [TIFF OMITTED] T5541.015
    
    [GRAPHIC] [TIFF OMITTED] T5541.016
    
    [GRAPHIC] [TIFF OMITTED] T5541.017
    
    [GRAPHIC] [TIFF OMITTED] T5541.018
    
    [GRAPHIC] [TIFF OMITTED] T5541.019
    
    [GRAPHIC] [TIFF OMITTED] T5541.020
    
    [GRAPHIC] [TIFF OMITTED] T5541.021
    
    [GRAPHIC] [TIFF OMITTED] T5541.022
    
    Mr. Turner. Mr. Evans.

                   STATEMENT OF DERRICK EVANS

    Mr. Evans. Chairman Turner, and members of the 
subcommittee, thank you for inviting me to appear before you 
today.
    My name is Derrick Evans, and I am a sixth generation 
descendent of the men and women who settled coastal 
Mississippi's Turkey Creek Community in 1866, year 1 of 
reconstruction, following Southern slavery and Civil War. I am 
also the founder and executive director of Turkey Creek 
Community Initiatives, a local 501(c)(3) organization engaged 
in the comprehensive revitalization of our historic and 
beleaguered community.
    Today I would like to share some insights relevant to our 
mutual concern, the historic preservation in the aftermath of 
Hurricanes Katrina and Rita.
    First and foremost, we must broaden from this point on what 
we mean by American, Mississippi, and coastal heritage, and 
what we consider to be historic resources. In coastal 
Mississippi, heritage discussions and National Register 
listings often continue for a variety of reasons to exclude a 
range of traditionally overlooked communities and sites. Even 
the 2004 congressional legislation enabling the creation of a 
Mississippi Gulf Coast National Heritage Area failed to mention 
African Americans when listing our region's many diverse 
cultural influences. The same basic tendency has of course held 
true with respect to low- and moderate-income communities that 
have not traditionally been engaged in active or deliberate 
historic preservation. Indeed, regardless of race or class, 
nonproximity to the beachfront or to a downtown business 
district, has repeatedly served to exclude some very important 
resources from our regional sense of self. Nevertheless, in the 
aftermath of Katrina it is largely these nonlisted people and 
places that do still stand to reflect, in the vernacular sense, 
our shared local and regional character.
    Since Hurricane Katrina hit, I have worked with architects 
and planners affiliated with the Governor's Commission on 
Renewal and with structural engineers and architectural 
historians representing FEMA, the National Trust, and the 
Mississippi Department of Archives and History.
    Since long before that, I have done the same with city, 
county, and regional planners, observing in each of these 
contexts that incomplete and fragmented data has prevented some 
otherwise very good ideas from moving forward. While it is 
obvious that updating, organizing, and disseminating coastal 
Mississippi's heritage data remains a pressing issue, I submit 
that an even deeper need for newer and intensive visioning 
exists. Without GIS data based on additional community surveys 
and covering a more complete range of National Register-
eligible structures and areas, the basic values and goals that 
have brought each of us here today will not bear fruit.
    In addition to greater inclusion, we must begin to broaden 
what we mean by heritage preservation itself, because for the 
foreseeable future the most productive use of our region's 
historic resources may very well be housing.
    Whether it is preservation standards and resources or rehab 
project management, homeowner education has become increasingly 
critical on the gulf coast. Needless to say, financial and 
technical support remain even more so, and herein lies the crux 
of the challenge that I believe we now face due to a sweeping 
and unparalleled disaster. Mississippi is one of the Nation's 
poorest States, and Hurricane Katrina has only worsened the 
economic prospects for her coastal residents. A very large 
number, like my mother, have lost everything they own, save for 
a solid old house, minus its sheetrock, insulation, roofing 
material, carpeting and so forth. Most Turkey Creek residents 
were never in a financial position to benefit from historic 
preservation tax credits, and they are even less likely to need 
them now.
    On the other hand, grants made directly to homeowners of 
National Register-eligible properties will do far more to 
courage Federal historic preservation among low- and moderate-
income people as well as among minorities in general. The same 
holds true for grants or loans to damaged churches and small 
businesses and neighborhoods where their continued existence is 
both vital and reflective of their community's culture.
    Finally, and perhaps most important regarding the central 
issue of housing, a combined preservation and rehabilitation 
mortgage loan with low down payment and interest rate could 
achieve in one sweep several distinct goals that from time to 
time concern this subcommittee: home ownership, historic 
preservation, housing rehabilitation, and neighborhood 
revitalization.
    Based on my own experience, HUD's 203(k) program would be 
an ideal model, as its intended purpose has always been to 
promote owner-occupant first-time buyers who revitalize 
existing distressed housing. While working with a HUD-certified 
fee inspector to complete the standard write-up and jointly 
approved draws from a rehab escrow account, I became a 
homeowner in 1997 while restoring a turn-of-the-century classic 
Boston triple-decker to its original architectural integrity. 
Perhaps this option, with the additional goal of National 
Register listing, will be made available to gulf coast 
residents through congressional legislation in the wake of 
Katrina. Whatever it is, something must be done soon, or more 
homes and potential heritage structures will be lost in very 
short order.
    Thank you very much.
    Mr. Turner. Thank you.
    [The prepared statement of Mr. Evans follows:]

    [GRAPHIC] [TIFF OMITTED] T5541.023
    
    [GRAPHIC] [TIFF OMITTED] T5541.024
    
    [GRAPHIC] [TIFF OMITTED] T5541.025
    
    Mr. Turner. Ms. Gay.

                  STATEMENT OF PATRICIA H. GAY

    Ms. Gay. Thank you, Mr. Chairman and members of the 
committee, for the opportunity to present recommendations at 
this policy hearing today.
    We greatly appreciate the concern for our unique city, and 
we hope that as we craft our recovery efforts, that other 
cities might also benefit. Ours is a story of a city of almost 
half a million, with tens of thousands of buildings that were 
flooded and remain empty today.
    It is particularly appropriate that this committee address 
this topic, because preservation provides one of the best 
examples of the three levels of government working in 
partnership, and also of how public and private sectors can 
work together for the benefit of all citizens. These 
partnerships have been instrumental in reversing urban decline 
in most American cities; indeed, we wish there would be more 
recognition of this fact.
    First and foremost, of course, our levees must be rebuilt 
stronger than before if our city is to recover and grow. But as 
we plan our recovery, we should look to past successes in our 
own city and in others. When we do so, we see that wherever 
historic architecture and neighborhoods are protected, property 
values increase, economies improve, and cultural heritage is 
enriched and perpetuated for future generations.
    The reason New Orleans has generated so much love and 
veneration from people around the world before and after the 
storm is because of historic preservation. The city we know 
today simply would not be but for the legislative act that 
created the Vieux Carre Commission in the 1930's, action that 
has been economically effective as well, and that anchored all 
other older neighborhoods in New Orleans in the following 
decades when other cities experienced major decline.
    The role preservation has played in our city's growth must 
be understood, and preservation must be a critical part of our 
recovery efforts. The disaster's flooding occurred in our 20th 
century neighborhoods, some of which are on the National 
Register or are eligible for National Register listing. We know 
there is hope for these areas, but not unless we do the right 
things. However, our older neighborhoods, which developed prior 
to 1900, did not suffer serious damage, all having been built 
on higher ground. Down river from the Vieux Carre, or French 
Quarter, we have Faubourg Marine, New Marine and Bywater, which 
suffered minimal damage. Even Holy Cross in the Lower Ninth 
Ward was built on higher ground, and it will regain vitality 
once electricity and water are restored.
    Going north from the Vieux Carre toward the lake, beautiful 
Esplanade Ridge and Treme are basically, as is Algiers Point, 
across the river. All of the neighborhoods upriver from the 
Vieux Carre that one would see from the St. Charles Avenue 
Street Car line or from the McGavin Street bus did not flood, 
and suffered comparatively minimal wind damage. Many avenues 
lined with live oak trees are still with us.
    So foremost in our recommendations is that our city value 
this good fortune and take the opportunity to put in place 
planning and regulation to guide new development and protection 
and restoration measures for what remains.
    All proposed development and recovery efforts must enhance 
and complement the irreplaceable economic resource of the 
city's historic architecture and neighborhoods. Already a 30-
story building is proposed for Rampart and Canal Street in the 
Vieux Carre. Here in Washington such a project would not be 
acceptable. We can look to our capital city for inspiration in 
seeking solutions that would attract appropriate development 
and to rebuild our population.
    Our next recommendation addresses the need to attract 
homeowners back to our city. We urge this committee to support 
the creation of a grants program, as advocated by the National 
Trust, that would be administered by the National Park Service 
and the State Preservation Office, and to support a one-time 
rehabilitation tax credit for homeowners in the disaster areas. 
Here in Washington you have seen how effective such initiatives 
can be for rebuilding populations. We truly need these Federal 
incentives for homeowners to return and repair their houses.
    At the local level, our city must devise a plan and apply 
resources to encourage and assist homeowners in returning to 
their homes. This is a priority for my organization, working 
with the National Trust, but much more must be done. The State 
should be encouraged to take advantage of successful 
preservation programs to stimulate economic development, such 
as the expanded use of the Main Street program, and of our 
brand new State homeowner rehab tax credit.
    Regarding HUD programs, we urge that the objective of mixed 
incomes and neighborhoods be a guiding principle in use of 
funds.
    Finally, we cannot stress enough the importance of a 
section 106 review process of the National Preservation Act. We 
feel confident in this process. However, we are concerned that 
there may well be renewed enthusiasm for demolitions without 
the use of Federal funds, which triggers a review. This could 
be prevented by having sound planning, regulation and 
protection in place, as mentioned earlier.
    I have submitted other recommendations in writing to you, 
and I thank you sincerely for this opportunity to address this 
topic today.
    Mr. Turner. Thank you.
    [The prepared statement of Ms. Gay follows:]

    [GRAPHIC] [TIFF OMITTED] T5541.026
    
    [GRAPHIC] [TIFF OMITTED] T5541.027
    
    [GRAPHIC] [TIFF OMITTED] T5541.028
    
    [GRAPHIC] [TIFF OMITTED] T5541.029
    
    [GRAPHIC] [TIFF OMITTED] T5541.030
    
    [GRAPHIC] [TIFF OMITTED] T5541.031
    
    [GRAPHIC] [TIFF OMITTED] T5541.032
    
    [GRAPHIC] [TIFF OMITTED] T5541.033
    
    [GRAPHIC] [TIFF OMITTED] T5541.079
    
    [GRAPHIC] [TIFF OMITTED] T5541.080
    
    [GRAPHIC] [TIFF OMITTED] T5541.081
    
    [GRAPHIC] [TIFF OMITTED] T5541.082
    
    [GRAPHIC] [TIFF OMITTED] T5541.083
    
    [GRAPHIC] [TIFF OMITTED] T5541.084
    
    [GRAPHIC] [TIFF OMITTED] T5541.085
    
    [GRAPHIC] [TIFF OMITTED] T5541.089
    
    [GRAPHIC] [TIFF OMITTED] T5541.090
    
    [GRAPHIC] [TIFF OMITTED] T5541.091
    
    [GRAPHIC] [TIFF OMITTED] T5541.088
    
    [GRAPHIC] [TIFF OMITTED] T5541.087
    
    [GRAPHIC] [TIFF OMITTED] T5541.086
    
    Mr. Turner. Mr. Preziosi.

                  STATEMENT OF DAVID PREZIOSI

    Mr. Preziosi. Chairman Turner and members of the 
subcommittee, thank you for the opportunity to appear before 
you today.
    Mississippi was forever changed on August 29th when Katrina 
ripped through the State. Not only did she take lives, but she 
also took the very heart and fabric of many of Mississippi's 
historic communities. Katrina's path left unimagined 
devastation, destroying complete blocks of historic houses, and 
left others in shambles. Many important historic landmarks are 
gone all along the coast, including the 1856 Tullis-Toledano 
Manor, which was crushed by a casino barge that was dropped on 
top of it by the storm surge.
    While the damage extended well inland in the State, the 
three coastal counties of Hancock, Harrison, and Jackson were 
the hardest hit. In those three counties, there are 15 National 
Register historic districts and 114 individually listed 
National Registry properties, as well as two National Historic 
Landmarks. Approximately 22 individually listed buildings and 
300 buildings in historic districts were lost, with at least 
1,000 more sustaining varying degrees of damage.
    My first trip to the coast involved a visit to Beauvoir, 
one of two National Historic Landmarks on the coast. I was 
astounded to find the destruction to the main house and the 
site was massive, with several historic outbuildings completely 
gone, and the wrap-around gallery torn off the main house. 
Traveling further down the coast I witnessed massive 
destruction to both historic and nonhistoric buildings alike, 
but was surprised to see that many historic buildings survived, 
but with varying degrees of damage.
    After that trip, the State Historic Preservation Office 
staff and I began to do damage assessment in each of the 
coastal communities. To date, we have surveyed over 1,200 
historic structures and have assessed along the coastline. We 
encountered numerous historic buildings with extensive storm-
surge damage or structures that were pushed completely off of 
their foundation, such as the charming houses in Ocean Springs 
attributed to Frank Lloyd Wright. Along the coast were also 
extensive roof damage from wind, tornadoes, and fallen trees, 
such as in Bay St. Louis.
    The Federal role in the preservation of historic properties 
damaged by Katrina should begin with additional technical 
support for FEMA in the field. More structural engineers and 
architects familiar with historic structures are needed to help 
evaluate the condition of damaged properties listed on the 
National Register. Currently in Mississippi, FEMA has only 
contracted with one structural engineer, three preservation 
consultants, and an architectural historian. All of them have 
to cover 72 miles of coastline and 12 municipalities in three 
counties, not including the other noncoastal counties also 
affected by Katrina. Structural engineers are key in helping 
property owners and local building officials evaluate the 
structures to determine if they are salvageable.
    Another major role of the Federal Government would be to 
help provide disaster relief assistance for historic properties 
through programs like the historic homeowners assistance tax 
credit and $60 million historic preservation disaster relief 
plans proposed by the National Trust. This grant money could 
help stabilize damage to historic properties, provide owners 
time to figure out what can be done to save their properties, 
and be used for gap funding where insurance does not cover the 
full repair to historic structures, or where lower-income 
historic property owners may not have adequate insurance. In 
many cases, people that suffered flood damage outside of the 
FEMA flood zones did not have flood insurance, and that damage 
was not covered by regular insurance, only covering wind and 
rain damage.
    The State role in the preservation of historic properties 
should be to provide additional technical assistance and 
services to historic property owners and cities with damaged 
National Register properties within their boundaries. The other 
role is for the State emergency agency, MEMA in Mississippi, to 
work more closely with the State Historic Preservation Office 
and FEMA. We have little support from MEMA regarding cultural 
resources, which has hampered efforts of the FEMA staff which 
must be asked in reviewing by the State. There needs to be a 
mechanism to override this requirement if necessary.
    The local role is to work with the Federal and State 
agencies to better protect local historic resources. Local 
governments need to give the historic property owners the 
chance to evaluate their structures to see if they can be 
salvaged before they are tagged for removal in the cleanup 
process. They also need to keep their local preservation 
controls and ordinances in place to help protect the remaining 
historic character of the community. It has been absolutely 
heartbreaking to see so many of our beloved historic structures 
in ruins or severely damaged.
    Much work lies ahead if we are to save the remaining 
historic places that are important to the historic character of 
Mississippi, which is crucial to the historic tourism market in 
the States. All levels of government--Federal, State, and 
local--must work together and form partnerships that strive to 
give every effort and assistance possible to those who own 
properties important enough to be listed on the National 
Register.
    We must not let Katrina take any more historic structures 
through a lack of effort or coordination on the part of the 
different levels of government. When you have pieces of your 
historic fabric ripped from you so violently and quickly, it is 
important that we do all that we can to save the remaining 
historic structures that now define the historic character of 
the coast. Thank you.
    Mr. Turner. Thank you.
    [The prepared statement of Mr. Preziosi follows:]

    [GRAPHIC] [TIFF OMITTED] T5541.034
    
    [GRAPHIC] [TIFF OMITTED] T5541.035
    
    [GRAPHIC] [TIFF OMITTED] T5541.036
    
    [GRAPHIC] [TIFF OMITTED] T5541.037
    
    [GRAPHIC] [TIFF OMITTED] T5541.038
    
    [GRAPHIC] [TIFF OMITTED] T5541.039
    
    [GRAPHIC] [TIFF OMITTED] T5541.040
    
    [GRAPHIC] [TIFF OMITTED] T5541.041
    
    [GRAPHIC] [TIFF OMITTED] T5541.042
    
    [GRAPHIC] [TIFF OMITTED] T5541.043
    
    [GRAPHIC] [TIFF OMITTED] T5541.044
    
    [GRAPHIC] [TIFF OMITTED] T5541.045
    
    [GRAPHIC] [TIFF OMITTED] T5541.046
    
    [GRAPHIC] [TIFF OMITTED] T5541.047
    
    Mr. Turner. I again appreciate each of you and the time 
that you have spent on this issue and bringing attention to it. 
We all know, and it's acknowledged in your comments, that this 
issue certainly is subordinate to the issues of safety and 
personal needs of communities.
    But as is evident in each of your comments, with the issue 
of historic preservation, so many times it's an issue of 
decisions that are being made where we are not aware of them, 
we're not preparing for them, we're not planning, and so 
through that we might lose some national treasures.
    It is my honor now to recognize Mr. Melancon, who is from 
Louisiana, from the Third District, who has joined us for his 
opening comments and questions.
    Mr. Melancon. I didn't really have any prepared comments. I 
came today because of my concern for Louisiana, Mississippi, 
Alabama, and of course the preservation of historic property 
structures and whatever throughout the area.
    With my work with the Lieutenant Governor and other people 
housed in the State legislature, historic preservation in New 
Orleans was always one of the forefronts of things that we 
concern ourselves with, and this storm has not made that easy.
    As I look at what is happening and hear that there is a 50 
percent threshold on demolition of structures in New Orleans--
and I don't know if that is actually the fact, I wonder--and 
one of the questions I would like to put forth is what exactly 
do we know what FEMA and the Corps of Engineers' marching 
orders are toward demolition of property; and in particular, 
how do we know how they are going to treat historic properties? 
That's kind of why I came, to hopefully see if anybody knows 
what's going on. And I appreciate the opportunity of being 
allowed to sit in with the committee. Thank you, sir.
    Mr. Turner. From a practical standpoint, we have two panels 
that includes from the first panel, individuals from the 
affected communities who can speak to their experience and what 
they're seeing on the ground. And then also in the second 
panel, we have individuals from the national perspective who 
will be talking about the obligations and coordination efforts. 
In response to that, if any of you would like to speak as to 
how that coordination is occurring. Throughout most of your 
written testimony you talk about ways in which this effort can 
be improved with FEMA and its coordination.
    Lieutenant Governor, would you like to begin?
    Mr. Landrieu. I'll take a crack at that, Mr. Chairman. 
Congressman, it is nice to see you. Thank you for coming this 
morning.
    Mr. Chairman, just in response to some of the comments you 
made briefly, there is no question that the priorities in the 
gulf coast are levees, and then of course wetland restoration, 
because those are the things that will protect whatever it is 
that we build back. However, it would seem to beg the question 
that once you build the levees and the wetlands to protect 
something, the question is what are you trying to protect? And 
what we're trying to protect will be a result of choices that 
we make. And the choices that we make will be guided by the 
principles that we think are important. And if we believe that 
historic preservation is economic development, which many of us 
in the Deep South believe--and we have seen many examples of 
that in recent years--and it is important for the tax policy to 
reflect principles that are going to allow us to make those 
choices that will then yield the consequences that we intend.
    And I think that's why many of us are here today. Not just 
to say let's restore what was there, but to talk about how you 
can build jobs with historic preservation and economic 
development.
    Congressman Melancon, the answer to your question is: I 
don't know right now. I think that the mayor of the city of New 
Orleans and the Governor and their two commissions are working 
with FEMA to design a process that will address what needs to 
be torn down and what can be preserved. What we're trying to do 
is to inform them, through the advocacy groups that we have, 
about how important is to have embedded in their assessment 
teams individuals from the American Institute of Architects or 
folks from the Historic Trust, so that when those decisions are 
made they're not just made without regard to the consequence of 
the decisions that they make.
    I know that in a couple of weeks there is going to be a 
summit that's being held by both the Governor and the mayor and 
the American Institute of Architects to actually talk about 
this 50-percent-plus-1 rule, because there is some confusion 
about what it really means. And of course it may change from 
neighborhood to neighborhood. I think that's an unsettled issue 
as of now. You won't be surprised to know that sometimes there 
are mixed signals coming out of FEMA on this issue. I think 
they are trying to figure out exactly what it means. And it may 
mean something different in Mississippi than it does in 
Louisiana. But I agree we have to find the right approach, the 
right rule, and then we have to make sure the assessment teams 
are in the place.
    As Mr. Preziosi said, there are not a lot of feet on the 
ground; actually, we need more feet on the ground, and 
assessment. There are people that have offered to do that for 
us, and hopefully the Governor and the mayor will take 
advantage of that. And I'm sure in Mississippi the same will be 
true as well. Thank you.
    Ms. Gay. The 50 percent rule is a very subjective thing, 
and I think it's going to be subjective geographically as well. 
It is something that concerns me. We see people cleaning out 
their buildings and preparing them for livability that were 
perhaps more than 50 percent damaged. Yet we see many streets 
where nobody is coming back yet, and we're very concerned about 
these properties. People are afraid of the mold. We are giving 
mold workshops. The mold can be removed. There is a lot of 
hysteria about it. It's a lot of hard work to get rid of, but 
it can be eliminated. Houses can be restored to livability. And 
our focus, of course, is the historic properties, the National 
Register, and eligible areas.
    But think of it this way: A city is a living organism. I 
think, OK, my head is very important, but I'm not going to 
worry about my arms and legs. The whole city is very important 
to us, and whatever happens to one half of our city certainly 
will affect the remaining historic properties.
    So we do try to look at the city holistically, at the same 
time focusing our efforts on the National Register areas or 
eligible areas. And we are pleased that the FEMA team is 
agreeing with us. We have a member of our staff who has been 
out on several of the team's inspections, and we are in 
agreement about the properties. So we feel good about that part 
of FEMA. But as the Lieutenant Governor said, we do not know 
what is happening in the other areas, we do not know what is 
planned for the newer parts of our city.
    Mr. Turner. Does anyone else wish to comment on this issue? 
If not, I will recognize Mr. Dent from Pennsylvania.
    Mr. Dent. Thank you, Mr. Chairman, for holding this hearing 
to investigate the effects of Hurricane Katrina on the historic 
culture and infrastructure of the gulf coast region.
    Much has been said--I'll submit my statement for the 
record--but I am excited to be here to discuss this important 
subject.
    My question, though, really is going to be directed, I 
guess, to Ms. Gay from New Orleans. How effective do you 
believe these historic preservation tax credits will be as 
opposed to, say, a direct grant program, particularly for the 
low/moderate income folks?
    Ms. Gay. Well, I think we have to have in the tax credit, 
grants provision so that a low-income homeowner could utilize 
it fully, either through a rebate or certificate or something. 
I think that the success of the tax credit program is 
outstanding. I mean, it is remarkable, the effectiveness of it. 
It goes through the State Preservation Offices, as you know. 
And our office does a really good job. It is one of the most 
outstanding in the country. So it gives credibility there and I 
think confidence in the grants that the Federal Government 
might see fit to give.
    Mr. Dent. I have observed it's a good program as well. My 
main concern is, you know the circumstances of the folks down 
there better than I do right now. And I just wonder if a direct 
grant approach would be more effective at this particular 
moment than a tax credit program. If anyone else would like to 
comment on that, feel free.
    Mr. Landrieu. I would like to comment on that if I could. 
First of all--and Congressman Melancon will understand this--
for the record, all of southern Louisiana, almost all of it got 
hit from Lake Charles to Cameron to Vermilion, some structures 
in Baton Rouge, even in Lafayette, and then in the home of 
Thibodaux, Terrebonne, New Orleans, Washington, St. Tammany, we 
had 13 parishes. And so all of the comments that we're making 
relating to historic preservation applies equally to those, 
maybe in a different context, but they've been decimated as 
well.
    And Congressman, I would say this to that request. Both of 
them are necessary and both of them are important for the same 
reason. One of the principles that we're trying to really push 
is that diversity is a strength, not a weakness. Having mixed-
use neighborhoods is really critically important.
    The historic tax credit that Patty Gay told you about has 
been just a great tool to revitalize historic neighborhoods. 
The Warehouse District, which basically blossomed after a 
failed World's Fair, was a result of historic tax credits; a 
tax abatement program where people actually went in and took 
old warehouses for furniture and have turned them into to the 
Renaissance Arts Hotel which has used the historic tax credit 
to renovate an old building and made a hotel and created jobs. 
There is a museum in it, and a wonderful restaurant by a world-
class chef. That is the cultural economy. And that happened 
because of the historic tax credit.
    When you're looking at other neighborhoods, I'm not talking 
about renovating big buildings into condos under the historic 
tax credit, but when you're talking about specific structures 
in mixed-use neighborhoods, having grants are important, but 
also having tax credits that can be taken advantage of by 
lower-income individuals are critical to that very basic 
principle.
    So I would rather not have to choose between the two and 
really promote both of them, because at the end of the day, 
again, we need the levees and the wetlands. The question is 
what are you going to protect? And that has to be worthwhile as 
well, which is why on this housing strategy, that needs to be 
the goal we're trying to achieve. And we find the different 
kinds of tools that can get us there.
    Mr. Dent. Mr. Evans, do you have a comment on that?
    Mr. Evans. Well, I would agree that you don't want to have 
it reduced to a choice between the two; it's all needed. But I 
live in a community that is a low-income census track in the 
city of Gulfport that was annexed about 10 years ago. Many of 
the houses that--the older homes that would be National 
Register-eligible, don't just have storm damage, don't just 
have a need to meet the Secretary of the Interior's standards, 
particularly on the outside of the home to, you know, to get 
this listing or to qualify for some of these credits and so 
forth.
    They also have, as a result of poverty, some deferred 
maintenance issues. And some of these homes have never met the 
Gulfport code because they were built 70 years before we were 
part of Gulfport. So the people I'm talking about, they don't 
have the startup capital to wait for a tax credit or a rebate 
to kick in later. In fact, even though we have been celebrating 
with great glee the very timely decision by the Department of 
Archives and History to make the recommendation that the entire 
community be considered by the Interior Department for registry 
listing, the fact remains that even though in one sense it 
seems like we're off to the races, well, in another sense, we 
don't have a horse yet.
    Mr. Dent. Understood. And my observation in my own district 
is that these historic preservation tax credits have been 
enormously effective in my area over the years. At the State 
level we have done some interesting work on that issue.
    But one more question. And Governor Landrieu, last time I 
saw you we were at a hearing, Transportation Infrastructure 
Committee, and I raised a question to Mayor Nagin about what 
appeared to be, hopefully, a proposal that has gone by the 
wayside that would essentially create a Las Vegas life in New 
Orleans. I'm told--is it true that proposal is now off the 
table? I hope it is.
    Mr. Landrieu. Yes.
    Mr. Dent. Thank you.
    [The prepared statement of Hon. Charles W. Dent follows:]
    [GRAPHIC] [TIFF OMITTED] T5541.092
    
    Mr. Melancon. One of the dilemmas--and this is an 
observation for the members of the committee, because many of 
the areas were in nonFEMA-designated flood zones--no mortgage 
required any flood coverage. What has happened with the flooded 
area is that the insurance companies are denying claims other 
than if it's roof damage or it's something that can be proved 
that it's wind damage. Then on the other hand those people--and 
Gene Taylor and I authored a bill about flood insurance--but 
those people that were in nonflood-prone areas in some of these 
historic preservation homes didn't have to buy flood insurance, 
and so they've got no coverage whatsoever, even though they 
bought what policies they thought they needed to take care of a 
situation like this. So we've got a lot of structures. And if 
you're looking into low-income areas, first of all, the 
insurance factor; the second thing is affordability. And if 
you're going to preserve any of these things, you're going to 
have to have some grants coupled with tax incentives, because 
otherwise some of these will never get back up.
    Mr. Evans. That's right.
    Mr. Turner. Ms. Foxx.
    Ms. Foxx. I'm fine, thank you.
    Mr. Turner. Mr. Evans, in talking about the efforts that 
you have undertaken in both preserving your community and 
redeveloping your community, you have the issue of the 
preservation of heritage, and you have the added issue, as you 
have indicated, of the issues of poverty, which has become a 
significant issue as we look to the evacuation processes and 
individuals who were not given the assistance that they needed, 
both during evacuation and postevacuation.
    You raised an important issue, and that is home ownership 
and the opportunity to look at both the grant structures and 
the programs that we provide for assistance in the area to 
provide an opportunity for home ownership. And you mentioned, 
of course, your own experience with HUD's program and how it 
might be able to apply in your community. And I want to give 
you an opportunity to speak some more on the issue of the 
importance of opportunities for home ownership through grant 
programs.
    As we look to each of these funding opportunities for 
reconstruction, redevelopment, I think one of the things that 
you have raised in the issue of home ownership is that we will 
also have an opportunity to couple that with having an impact 
on people's lives. And if you would speak on that, I would 
appreciate it.
    Mr. Evans. Yes. I think at the end of the day what we all 
want as much as possible is people owning homes, living in 
those homes, those homes being insurable, those homes being 
mortgageable, and those people taking a responsibility, the 
personal responsibility to maintain that home. And it's almost 
like making lemonade out of lemons, you know, in the aftermath 
of Katrina, that where you see now that so much of what is left 
of our architectural heritage in my part of the coast are some 
of the more humble, scalewise, structures, coastal bungalows, 
even some shotgun homes. But there are plenty of people in the 
city of Gulfport now, evacuees who would relish an opportunity 
to call one of those places home, and who would speak with 
pride about the additional benefit or even contribution to 
society of having that home being a reflection to all of our 
shared coastal and southern and American heritage.
    I think we have an opportunity here, by joining together, 
marrying together some of these normally disunited or 
disobjectives, literally--no pun intended--under one roof. I 
think we ought to jump on that. I mean, it's just something I 
think is as clear as water.
    Mr. Turner. Thank you.
    Many times in the testimony that we have been provided the 
106 review process is identified and discussed both in its 
importance and in the issue of the need to provide additional 
resources to the area so that the 106 review process can be 
utilized effectively. There are, as you know, many critics of 
the 106 review process. And these critics, in looking at the 
issue, many times believe that the process inhibits 
redevelopment, growth, or development potential.
    I think the theme in the testimony that we have before us 
is so important to focus on, and that is the issue of the 
importance of 106 review process--what it gives us, what it 
accomplishes--and also the issue that has an impediment. The 
issue of resources is really where we need to focus, and it can 
make the process more effective.
    I would like it if each of you would comment on that, and 
we'll begin with the Lieutenant Governor.
    Mr. Landrieu. The 106 review process is implemented in 
State government under the auspices of the Department of Parks 
and Recreation and Tourism, which is the department that I help 
run. It's a very important process.
    It's not the process itself that is the problem, and as 
Patty said earlier, so much of this is subjective, it's what 
the principles are that guide the review process. And so as we 
think through this, if we get the principles right and we have 
the resources, then it seems to me that the consequences will 
be good ones rather than bad ones. There is always almost a 
zero-sum game that goes on between developers and those that 
are interested in historic preservation. It doesn't have to be 
a zero-sum game.
    There is a tremendous amount of consensus that can come to 
the floor when you're talking about development and the 
preservation of historic properties, especially if you accept 
the principle that historic preservation is economic 
development. And there have been many wonderful examples, as 
Ms. Gay said earlier, especially in Louisiana and many in 
Mississippi as well, where we have really kind of led the 
Nation in showing people that you can actually do both.
    You also now know from Mr. Evans how critical it is if 
you're trying to create a mixed-use neighborhood, how you can 
do that with grants and historic tax credits for low-income 
folks.
    So again, I don't think it's the process that's the 
problem. I think it's really how it's been used and maybe how 
it's been abused; how it's been perceived by both. But this has 
given us a new opportunity, because as many people have seen, 
the things that we have taken for granted are the things that 
the country seems to miss the most already. And when we talk 
about rebuilding the soul of America, one of the things we're 
talking about is our history and our sense of place and our 
sense of music. And all those cultural things that we think 
just happened by accident, unfortunately they're not going to 
be there by accident anymore. And so we have to go back in and 
look at the process, make sure that it's used appropriately, 
and perhaps most importantly, make sure we have the resources 
to actually do the job.
    There is going to be some philanthropic fatigue that sets 
in. The American Institute of Architects will only do things 
for free for us for so long. Folks will only come in for a 
short period of time. But if you don't have the people on the 
ground and the resources to get the job done and have somebody 
from the SHPO offices embedded in each one of those FEMA teams 
over the long haul--because make no mistake about it, there are 
no easy fixes, as Mr. Dent said about the mayor's casino 
proposal. There is no quick start to economic revitalization. 
This is a long haul.
    This is a long haul. It's going to take a long time, and if 
we're committed to it, we have to have the resources to get it 
done. Then if we do, I think we'll do a good job.
    Mr. Turner. Mr. Holmes.
    Mr. Holmes. Unfortunately, it is very seldom a win-win 
situation between the preservationists and the developers. On 
the Mississippi gulf coast, because of some of the good work 
that we have done with the historic preservation work, the 
staff of the Department and with the Mississippi Heritage 
Trust, we have any numbers of people calling us begging us to 
come in as soon as possible to do assessments. They were very 
protective of their neighborhoods. This was pretty much across 
the spectrum down there.
    We were in fear that there might be some hurry-up activity 
down there from a city engineer or Corps of Engineers to get 
started with destruction, but overall it has been a good 
situation in the sense that the public recognition of this 
review process is there, and there was a very strong desire 
that the communities be preserved. So in this case we're able 
to go down and work with the communities, with the local 
governments that for the most part have been very supportive of 
this process. Of course, they're in the process now of 
fusioning the new coast, and we hope to have very much a strong 
role in playing, in suggesting a large part of our heritage 
needs to be preserved in that.
    Mr. Turner. Mr. Evans.
    Ms. Gay.
    Ms. Gay. I have a slightly different perspective. I think 
the preservation program, as I said earlier, is an exemplary 
example of Federal, State, local agencies working together, 
public and private, and section 106's review process is a 
critical part of the program. There are many other aspects of 
the program. We need all of them. And I was just talking to Ed 
McMahon of Urban Land Institute a few days ago, and he was 
pointing out that the cities with rules and regulations are the 
cities that are doing the best economically. Developers will 
not leave when you have rules and regulations; in fact, that's 
a sign that you know what you're doing, your city has its act 
together. And so it attracts development.
    So section 106 is a way to deal with the fact that you have 
Federal moneys and programs that are often hard for local and 
State governments to say no to, and yet we can't say, oh, we 
have to save those buildings in the face of all this money that 
might be coming. That's why we put it in place. And it has 
worked very well, and I guess perhaps we're lucky that we have 
such a good preservation office in the Department of Culture, 
Recreation and Tourism.
    But I would also like to say that some States even have the 
equivalent of a section 106 process, and I wish we had it in 
Louisiana, and I think it's good for the Federal Government to 
do it; why shouldn't the city do it? Why shouldn't a city say, 
well, how would our funding this project affect our historic 
resources? I think it's a good example that the Federal 
Government has set, and I hope that we see more of a review 
rather than less. Thank you.
    Mr. Preziosi. I think section 106 process is really crucial 
to saving our historic properties. One thing that we found 
being on the coast and holding public meetings with the local 
people there, they're terrified their houses are going to be 
torn down without their approval. A lot is rumors and things 
floating around, but section 106 at least slows down that 
process and gives owners and cities a chance to look at the 
buildings and determine whether or not they are salvageable. I 
realize many of them won't be salvageable and will be taken 
down, but at least the 106 process gives it that time to review 
it and to make sure that every effort is taken to save it.
    I had one property owner on the gulf coast who was afraid--
it was going to cost him $45,000 to tear down his house. He 
wanted to save his house, but he didn't want to pass up the 
time limit for the demolition removal by FEMA, which now has 
been extended to the end of November. But he was scared if he 
tried to find somebody to look at his house and investigate 
whether or not it could be saved, that he would pass that 
period, and he would have to spend the $45,000 to demolish his 
house. So I think by having the 106 process, at least it slows 
it down a little and gives people a little bit more time to 
investigate, and I think that's the biggest benefit of having 
it in place.
    Mr. Turner. In looking at the testimony and focusing on the 
issue of gap needs, where we're already having significant 
discussion and where we are not, one of the things that I think 
was very helpful was the discussion of the need for dollars 
with respect to stabilization of structures in an attempt to 
save them for the future, and/or, as you were saying, Mr. 
Preziosi, to do additional evaluation prior to demolition.
    I appreciate in all of your recommendations there are some 
great information here on what we need to do with the existing 
Historic Preservation Tax Credits as we look to rehabilitation 
and the economic development for the area, historic home 
ownership assistance tax credits and others grants. If you 
would take a moment to speak of the need for stabilization 
moneys as we look to try to both evaluate and preserve these 
for the future.
    Lieutenant Governor.
    Mr. Landrieu. It's critical. It goes back to Mr. Dent's 
question about whether grants or tax credits. The truth is you 
need both.
    The same thing is true with the gap as well. You have a 
problem, and it's called cash-flow, and some people have it, 
and most people don't. And so you have to find a way to make 
that happen in order to stabilize these structures.
    A lot of this is a timing issue as well. If you can 
envision, for example, the whole neighborhoods in the New 
Orleans area, also some in Cameron Parish, that are just gone.
    So it's not an issue whether you maintain historic 
properties or not. Some neighbors have some historic 
properties, some don't. As the city tries to figure out what 
they're going to do with FEMA, folks actually are sitting there 
waiting. Some people have resources, some people don't. So just 
the stabilization of these particular structures is of critical 
importance to us as we look to what's going to happen a year 
from now, 2, 3 years. It's not as though people are there and 
somebody is going to flip a switch and start working tomorrow. 
Just the mundane stuff of getting building permits out of the 
city of New Orleans that as recently as 2 weeks ago laid off 
3,000 people as you can see is not as easy as folks seem to 
think it is.
    So anything that we can do to stabilize what is there now 
is going to be very helpful. If you don't, you will get to the 
point, as Mr. Evans said earlier, by attrition destroying 
things that the storm actually did not destroy.
    Mr. Holmes. Over the last three decades we have responded 
to various hurricanes on the coast. Katrina has rewritten so 
many rules because this hurricane was so different from 
anything that we've ever had, and one of the big differences 
was in its widespread catastrophic devastation. In previous 
hurricanes the damage was fairly localized so that the support 
services along the coast were still there. Very quickly people 
could come in and help owners of private homes to do 
stabilization. The devastation was so widespread here. No 
support services existed for several, several days; that if we 
in Jackson had some grant funds to work with immediately to be 
able to provide minimal stabilization of some of these 
structures, it's quite possible that they could have been 
saved, again with a minimum of taxpayer money spent, but it 
just takes a little sometimes to be able to help.
    These folks were trying to get their lives back together in 
ways that they never had to try before, and we were there to 
provide assistance, but also step back to be there for the 
future as people began to rebuild and provide resources for the 
long term.
    This occurs with all sorts of historic resources there, but 
as I said earlier, it was probably the biggest need early on 
was to have little funds to be able to provide immediate 
assistance to these owners.
    Mr. Evans. Well, Turkey Creek is in a unique and ironic 
position right now. The fact is that for years before Katrina, 
we had been the squeakiest wheel, not necessarily the most 
historic black community on the gulf coast. But in the 
aftermath of Katrina, as Mr. Holmes and I were talking before 
this hearing, he indicated that the storm made it crucially, 
patently clear to his department how special and worth the 
extra effort a place like Turkey Creek actually was because of 
how much was lost.
    I think, however, that the flow of information to other 
neighborhoods and communities, not just African American 
communities, communities where this potential for not losing 
potentially habitable heritage structures that can provide home 
ownership opportunities for people, they're not as ramped up as 
well as the Turkey Creek community is about the resources that 
are available as far as immediate assessments from structural 
engineers and so forth.
    I mean, I have watched these structural engineers and the 
architectural historians walk through several times in the city 
of Gulfport, and they're very responsive to calls from people 
that are curious to know, but I just think that they're 
overstaffed--they're understaffed, I assume underfunded, time 
is of the essence, and in varying degrees the squeaky wheel 
gets the grease. And I have thought and talked over dinner with 
several of the folks on these assessment teams about things 
like how do you prioritize. Should they go hunting, if you 
will, for areas where, say, for instance, you might get 10 or 
20 of these type of potential heritage new home ownership 
opportunities compared to something that maybe the mayor of a 
particular coastal community told them to go spend some time 
assessing like, you know, a grand antebellum something down on 
the beach front or a public building that is of more immediate 
concern to the local leadership because of their understanding 
of heritage priorities at this point.
    I don't think--so I think a lot of people are on a learning 
curve right now, and some folks are not in the same place. I 
think we in Turkey Creek know about as much going on because of 
what we've been involved with these departments for quite a 
while, and I think it's one of the unwritten tragedies of 
Katrina that may very well spell a tremendous amount of more 
loss of things that the storm didn't take out, and that has to 
do with the understanding and the flow of information and the 
dialog and process. These folks are doing their job.
    Ms. Gay. I'd like to say I'm sure we all want to leverage 
any dollars public or private, but we're talking about public 
here, as much as possible. There's one thing that we need to 
think a little differently about, and that is the energy and 
the heart and soul, the dedication of the individual homeowner. 
There are thousands of New Orleanians who haven't come back. 
They haven't come back to Gentilly Terrace, Broadmoor, to South 
Lakeview, to Mid-City and Parkview. Some of them are just 
waiting, they're just waiting. Some brave souls are coming and 
said, I'm going to do my house no matter what. This is energy, 
when one person comes back, then another one comes back, then 
another one comes back.
    We have to think of how can we make this happen in a bigger 
way, not just the National Register districts, but in other 
districts; how can we leverage this incredible strength and 
energy of the individual homeowner. I was reading in the 
Washington Post this morning about a homeowner who'd gotten 
evacuated and is in Washington and finally gotten a job, but 
sounds like he's crying every day that he's not back home in 
New Orleans. It didn't say where his house was. There is that.
    So what can we do, how can you help us? I think the 
symbolism of the grants and tax incentives is as important as 
the actual dollars, because it shows we want you to come back. 
I have seen that in preservation grants time and time again. 
The main street grants, they're small. They really in the end 
don't make the difference financially in a project sometimes, 
but it is the symbolism of it, the commitment to the whole main 
street, the fact that they're not going to be the only one 
doing it. It's a government program, and it's a good government 
program. Let's not overlook that. Thank you.
    Mr. Preziosi. I think stabilization is crucial at this 
point. I think with a little effort with stabilization at the 
beginning, we can save a lot more buildings. For instance, 
there's a house in Pass Christian that the storm surge washed 
out the first floor, and the second floor was being held up by 
its interior wall studs and chimney, and I was there on 
September 16th and photographed that house, and almost 2 weeks 
later, on September 28th, the house had completely fallen. So 
if there was some way to stabilize that at that point, we could 
have saved that house.
    At the Mississippi Heritage Trust we're doing a 
stabilization pilot program with some money that we received 
from the National Trust and from Johnson & Johnson to actually 
go out in the community and do stabilization of about 10 to 20 
homes. We're working on selecting those homes right now to 
prove that with a little bit of money, we can stop these houses 
from deteriorating any further. Give the owners some time to 
help to figure out, work with insurance, work with other 
agencies to get the money to eventually restore the house and 
save the house.
    Mr. Turner. Mr. Dent.
    Mr. Dent. I just wanted to clarify, in my district we've 
had some great success with historic preservation using various 
incentives, I don't recall if we used tax credit or not, and I 
know that under normal circumstances restoring historic 
properties is very difficult, and it's a lot of hard work, and, 
as Ms. Gay has suggested, the people who do this see things 
that a lot of the rest of us just don't. We can drive by an old 
property, and it's a cruddy old property, and somebody else 
sees a beautiful historic property in a vision.
    I guess my question is you're not operating under normal 
circumstances by any means down there, and so the question is 
you have to restore basic service and rebuild infrastructure 
and stabilize all these damaged properties and buildings and 
other facilities. And we all believe in historic preservation. 
Where does that fit into the grand scheme of things? Maybe the 
question should be addressed to the Lieutenant Governor. As 
you're trying to do all these things simultaneously, how do you 
set priorities? Where does historic preservation fit into that 
grand scheme?
    Mr. Landrieu. Well, I think it's a very high priority for a 
number of different reasons. Obviously, the first priority is 
to protect yourself from the next storm. That's levees, and 
that's wetlands. Those are both really big ticket items for the 
American people, but they're necessary. You can't afford not to 
do them unless you're willing to write off the gulf coast of 
the country, and I don't think anybody in this country is 
proposing that seriously. I know some people are proposing it, 
but I don't think they're serious about it.
    But again, the next question then gets to be what do you do 
next; police, fire, all of those essential services. The point 
that is you really have to do them all, and there are many of 
us working on many different fronts that have responsibilities 
for particular areas, and our responsibility at this table is 
historic preservation, but, again, not just for the point of 
preserving it. It gets you payback that I think many people 
have underestimated.
    In Louisiana we're really trying to get people to 
understand what the words ``cultural economy'' mean so that 
when you are renovating a historic property, not only are you 
putting that property back in commerce, not only are you maybe 
creating a homeowner, but also putting an artisan back to work, 
bricklayer or brick mason. You have an architect that's working 
in a way they don't really get to work when they're working on 
modern buildings. You have a whole scale of employment that 
responds to that, that in Louisiana provides 144,000 jobs. 
That's a big deal. And so if people are going back to work and 
making money, they can then afford to do what they're going to 
do in their own homes and neighborhoods. So it's a critical 
piece of it.
    I guess maybe another way to answer is if we didn't pay 
attention to it and didn't care and wasn't a priority, then 
what would happen? What would happen is the consequence would 
be that you would have an area that doesn't look anything like 
it looks now, and you would lose a very important piece of 
American history and American culture.
    So I think it's a dangerous trap to get into, and I got 
into this trap, when you're running for office, somebody says, 
what do you like better, police and fire, or the arts, as 
though that's a good choice. Well, if you ask them, well, let's 
talk about funding the arts, and let's talk about what it 
means.
    Mr. Dent. I understand we have to find ways to preserve 
this history, these properties; the question is when. You have 
so many things on your plate, the question is, I understand 
it's a priority, but I guess timing.
    Mr. Landrieu. You have to do it all simultaneously, and you 
have to find a way to make that right. The people that are 
working on levees are not talking about historic preservation, 
but the people talking about the housing strategy as opposed to 
building a level at Cat 5 or building a wetlands in a 
particular way, there's a whole other group of individuals that 
have focus on housing and what housing means. When you start 
talking about that, I would argue strenuously you can't speak 
about housing without talking about historic preservation and 
architecture and having the kinds of folks we talked about 
embedded in that process so that when it's designed from the 
beginning, you have a pretty good idea of what the consequences 
are that you want to yield. So, unfortunately, we're compelled 
to do a lot of things at once, and we better get it right, 
because we're not going to have the chance to do it again.
    Mr. Dent. Thank you, Mr. Chairman.
    Mr. Turner. I want to thank everyone on this panel for 
participating, both your preparation for coming here, the time 
that you have spent here, but also the things that you're doing 
in your community to make certain recovery continues and that 
historic preservation is an issue that is addressed in the 
process. So on behalf of all the members of the committee, we 
want to thank you, and I certainly encourage you to look to 
ways we might be able to assist your successful efforts. Thank 
you.
    At this time then we'll turn to panel two, which includes 
John Nau, chairman of the Advisory Council on Historic 
Preservation; Dr. Janet Matthews, Associate Director for 
Cultural Resources, National Park Service; Richard Moe, 
president of the National Trust for Historic Preservation; 
Norman Koonce, executive vice president and CEO of American 
Institute of Architects.
    We'll take a 3-minute break while the next panel joins us.
    We begin now with our second panel, and as you may recall 
from the instruction that we gave to the first panel, there is 
a timing light on the table in front of you. We have the 
written testimony that you provided to us, and we appreciate 
the work that has gone into the preparation of that testimony. 
We would ask that you provide us a 5-minute oral summary of 
your testimony. The lights on the table will give you a yellow 
cautionary and then a 5-minute red light.
    It is the policy of this committee that all of our 
witnesses are sworn in, so if you would please rise to receive 
the oath.
    [Witnesses sworn.]
    Mr. Turner. Please let the record show that the witnesses 
have responded in the affirmative.
    We'll begin this panel with Mr. John Nau, chairman of the 
Advisory Council on Historic Preservation.

 STATEMENTS OF JOHN L. NAU III, CHAIRMAN, ADVISORY COUNCIL ON 
 HISTORIC PRESERVATION; JANET MATTHEWS, ASSOCIATE DIRECTOR FOR 
    CULTURAL RESOURCES, NATIONAL PARK SERVICE; RICHARD MOE, 
 PRESIDENT, THE NATIONAL TRUST FOR HISTORIC PRESERVATION; AND 
    NORMAN L. KOONCE, EXECUTIVE VICE PRESIDENT AND CEO, THE 
                AMERICAN INSTITUTE OF ARCHITECTS

                  STATEMENT OF JOHN L. NAU III

    Mr. Nau. Chairman Turner and members of the committee, 
thank you for providing this important forum to consider how 
best to treat historic properties in the devastating wake of 
Hurricanes Katrina and Rita, and, as importantly, plan for 
future catastrophic events.
    Now, since submitting my written testimony, I was able to 
visit New Orleans last Friday and tour many of the areas of 
destruction within the city; meet with FEMA, State and city 
officials. I left New Orleans with a sense of profound sadness, 
seeing firsthand the massive extent of destruction and the 
immense emotional and physical trauma suffered by the city, its 
historic neighborhoods and, of course, its residents. But I 
also left with a sense of confidence that New Orleans will 
heal, and it will recover. And that the city's rich heritage 
will play a key role in this recovery.
    The gulf coast region's heritage assets are extremely 
important not only as significant components of the Nation's 
diverse architectural, cultural and historic record, but also 
as an economic asset making essential contributions to these 
communities and to our Nation. In New Orleans alone there are 
18 historic districts included in the National Register of 
Historic Places. Heritage tourism is a key industry that 
significantly impacts the economic well-being of many of the 
communities affected by these storms.
    As the Federal Government moves to support the recovery of 
the region, Federal decisions will significantly affect the 
future of these heritage assets. The National Historic 
Preservation Act and its section 106 process, which the ACHP 
oversees, assures that historic preservation values are 
considered by Federal agencies in carrying out their 
activities. Thus, I fully expect that the ACHP and section 106 
will have a critical role to play as the Federal agencies 
decide how best to reflect historic preservation values as they 
carry out their duties.
    It is essential that the Federal Government promote the 
preservation and rehabilitation of important historic assets in 
this region. Through our work with FEMA during the past 16 
years on a variety of disasters, the ACHP has come to 
appreciate FEMA's grasp of historic preservation issues and its 
growing sophistication in meeting its section 106 
responsibility. FEMA has a record of which it can be proud in 
responding to historic preservation issues in the wake of 
previous natural disasters, but FEMA now recognizes that the 
immense scope of Katrina and Rita's impacts to heritage assets 
pose unimagined challenges. The ACHP will be detailing staff 
members to the region to work with FEMA and other Federal 
agencies involved in the recovery effort. Our goal is to make 
section 106 reviews a valuable tool to foster informed and 
efficient decisionmaking by Federal agencies.
    Mr. Chairman, I point out that there are 12, at least 12, 
Federal agencies plus FEMA in 4 States, with many local 
stakeholders. It's a scale that the National Historic 
Preservation Act has never previously faced. From my visit it 
is clear to me that we will confront some very difficult 
decisions with many historic structures damaged beyond repair.
    The scope of the disaster threatens to overwhelm the 
capability of the State's historic preservation officers and 
the ACHP staff to meet their responsibilities under the NHPA. 
To meet these challenges for both the immediate crisis and 
future disasters, I think we must learn from Katrina and Rita. 
I offer the following recommendations for a national disaster 
program for historic properties.
    First, the Federal Government should provide adequate 
direct assistance to State Historic Preservation Offices for 
human resources, housing, transportation and other response 
needs to facilitate recovery efforts and the delivery of 
Federal assistance. The experience and the knowledge of the 
SHPO is vital to any recovery effort.
    Second, the Federal Government, through section 106 
reviews, should ensure historic properties and their values are 
adequately considered both as irreplaceable links to the past 
and a valuable economic asset for the future in any disaster 
recovery decisions.
    Third, Congress should provide direct funding through the 
Historic Preservation Fund for repair and rehabilitation of 
damaged historic properties. Congress should also expand the 
current Federal Historic Preservation Tax Credits to include 
owner-occupied residential buildings as well as commercial 
historic properties.
    Fourth, Congress should provide adequate funding to support 
the programs and staffs of the SHPO offices through the 
Historic Preservation Fund. I can't overemphasize how important 
this is. Such funding should support the digitization of 
historic building inventory records for use by FEMA and its 
other Federal partners. In the wake of a disaster, an effective 
GIS data base would provide critical information about the 
location and significance of historic properties.
    Historic properties are a valuable asset to our national 
identity, and they are a means for a community to recover from 
the devastation brought by a major disaster. By ensuring that 
these properties have a future, citizens will be able to 
maintain an essential connection with their community's 
heritage. Again, we appreciate the subcommittee's interest in 
these issues. Thank you very much, Mr. Chairman.
    [The prepared statement of Mr. Nau follows:]

    [GRAPHIC] [TIFF OMITTED] T5541.048
    
    [GRAPHIC] [TIFF OMITTED] T5541.049
    
    [GRAPHIC] [TIFF OMITTED] T5541.050
    
    [GRAPHIC] [TIFF OMITTED] T5541.051
    
    [GRAPHIC] [TIFF OMITTED] T5541.052
    
    [GRAPHIC] [TIFF OMITTED] T5541.053
    
    Mr. Turner. Dr. Matthews.

                  STATEMENT OF JANET MATTHEWS

    Dr. Matthews. Mr. Chairman and members of your 
subcommittee, thank you for your thoughtful, detailed 
consideration and for the opportunity to present information on 
the role of the National Park Service in working with Federal, 
State and local governments.
    As you indicated in your remarks, Mr. Chairman, the gulf 
coast has long been recognized for its centuries-old nationally 
significant Native American, French Creole, Anglo American, and 
African American cultures. These influences created some of the 
most diversely, intensely concentrated architecture in North 
America. It will be months before the full extent of the damage 
is fully known. Already it's abundantly clear the storm took a 
heavy toll on that heritage and the historic fabric.
    Our National Center for Preservation Technology and 
Training worked with FEMA, the affected States and other 
preservation partners to design rapid and detailed building and 
site condition and assessment forms, related tools and 
guidance. National Park Service provided maps of impacted 
historic districts to the States.
    As you mentioned earlier, the center in the ongoing work we 
do through the Federal operations results in such things as the 
center meeting once a week and now every other week with all 
parties who were interested and able to attend to help make 
informed decisions about preservation and performed selective 
demolition only where necessary.
    The National Park Service posted technical information on 
the recovery of wet objects to assist museums and private 
citizens in preserving damaged objects, documents and 
photographs. We provided cooperative workshops regarding water-
damaged collections to over 110 museum and library 
professionals throughout Mississippi alone. The National Park 
Service Incident Management Team fielded questions to provide 
technical assistance to sites and private citizens, and the 
National Park Service is the lead Federal agency in historic 
preservation coordinating programs, such as the National 
Register of Historic Places, as you have heard repeatedly from 
your testifiers.
    States, Federal, and including the State Historic 
Preservation Offices, provided documentation and technical 
information and assistance services as defined, as you 
mentioned, by the Conventional Wisdom, Inc., in the 
establishment of the State Historic Preservation Offices and 
the National Register of Historic Places in 1966, 40 years ago. 
In Louisiana alone we know that we have identified 1,286 NR 
listings. Those include 84 NHLs, some 52,000 significant 
historical properties; in New Orleans alone, 138 listings, 
including 26 National Historic Landmarks, 40,800 significant 
historic properties. In all of Mississippi there are 1,290 
listings, including 38 National Historic Landmarks, 15,000 
significant historic properties. In the 22 affected counties in 
Alabama, 15,892 significant historical properties within 619 
listings include 17 National Historic Landmarks.
    As you have heard today repeatedly, these lie within public 
and private ownership, proud and humble places, rural and urban 
settings. The context of all the environment, significant or 
not, extends and emanates from the Native American to the 
recent past periods.
    Throughout the disaster areas, National Park Service teams 
assisted parks. Over 78 National Park Service units, employees, 
have volunteered their services and stand ready to respond to 
FEMA requests for assistance.
    Under the National Response Plan, the Department of the 
Interior is the lead agency for the national cultural/ resource 
historic properties protection part of emergency support 
function No. 11. The National Park Service coordinates the 
cultural resources components within this hurricane season. As 
cooperatively agreed, the Departments of Interior and 
Agriculture supply cultural resource volunteers in response to 
FEMA's requests. NPS employees have been assigned to FEMA 
headquarters, the National Response Coordination Center, the 
Louisiana Mississippi joint field offices.
    To date, the Park Service has fulfilled FEMA requests for 
professionals in various fields required. The National Park 
Service pre-positioned incident management teams for rapid 
response. Once the areas were secure, the Park Service deployed 
historic preservation specialists and museum specialists to the 
affected sites. Teams assessed damage in historic structures, 
evacuated threatened and flooded museum collections, stabilized 
historic structures, provided archaeological assessment and 
salvage. These teams have completed their work, and park unit 
staffs are managing the long-term recovery.
    The Park Service is proud of the rapid response of 
employees to this emergency in all areas of need, including 
historic preservation. We stand ready to provide further 
response as called upon by FEMA under the National Response 
Plan.
    Mr. Chairman, this concludes my testimony. Thank you again.
    Mr. Turner. Thank you, Dr. Matthews. The slide show that 
you brought with us certainly provided some dramatic examples 
of issues that you were raising.
    [The prepared statement of Dr. Matthews follows:]

    [GRAPHIC] [TIFF OMITTED] T5541.054
    
    [GRAPHIC] [TIFF OMITTED] T5541.055
    
    [GRAPHIC] [TIFF OMITTED] T5541.056
    
    [GRAPHIC] [TIFF OMITTED] T5541.057
    
    [GRAPHIC] [TIFF OMITTED] T5541.058
    
    [GRAPHIC] [TIFF OMITTED] T5541.059
    
    [GRAPHIC] [TIFF OMITTED] T5541.060
    
    Mr. Turner. Mr. Moe.

                    STATEMENT OF RICHARD MOE

    Mr. Moe. Thank you, Mr. Chairman, very much, members of the 
subcommittee, for holding this hearing, and thank you, Mr. 
Chairman, for the great leadership that you and Congressman 
Miller are giving to the Historic Preservation Caucus. It's an 
important vehicle that we all appreciate.
    This hearing is important primarily because it gives due 
recognition, I think, to a very unique threat to historical and 
cultural resources in this country as we've never experienced 
before. If we don't get this right in the next few months and 
years to come, this will not only be remembered as a great 
human tragedy, but it could very well go down in history as the 
greatest cultural tragedy to affect this country because of the 
loss of significant historic resources.
    As you know, Mr. Chairman, the National Trust was chartered 
by this Congress in 1949 to be the Nation's leading private 
preservation organization. We do a lot of different things, but 
among them is dealing with disasters, and we've had a lot of 
disaster experience in the last several decades. I'm very 
pleased to say we have a working relationship now with the 
organizations and offices represented by both panels that you 
have called here today.
    I have had a chance to visit both New Orleans and the 
Mississippi gulf coast in recent weeks, and as has been said, 
this is unbelievable damage. Both places look like war zones. 
They're totally devastated in their own ways. I have submitted 
some photographs for your record, which I'd appreciate being 
included in the record if it's possible, Mr. Chairman.
    Let me just say in New Orleans you have heard some 
descriptions, there are 20 National Register historic districts 
in New Orleans. They comprise half of the area of the city, and 
they contain over 37,000 historic buildings. There is not a 
concentration of historic structures like that in any city in 
America. New Orleans, as we all know, is a very special place, 
but it's been estimated that two-thirds of these structures, 
the historic structures, have been damaged by wind or water or 
both, so there's an enormous need. If this city is to retain 
its character and to come back, there's an enormous need to 
address that. In Mississippi the need is somewhat different due 
to the surge and the wind, but we've already lost 300 historic 
properties; 12,000 remain. Most of those are damaged.
    The National Trust has set up the National Hurricane 
Recovery Fund in order to help send in survey teams to work 
with local officials. We've opened offices in both communities. 
We're offering technical assistance on mold and other issues, 
and we're already giving stabilization grants in Mississippi 
and will very soon be undertaking demonstration projects with 
our partners in New Orleans to show how these houses, middle 
and low-income houses, can be saved and brought back. And, of 
course, we're partnering with all of these organizations.
    The vast majority of the historic properties in both 
Mississippi and New Orleans are privately owned, and there are 
not, unfortunately, existing programs to really help these 
private property owners to bring back their properties. FEMA 
money, as you know, cannot be used for the restoration of 
private property. So we have proposed together, and I think 
it's fair to say this is a consensus program, Mr. Chairman, 
that we have put together as preservation communities as a 
whole, to urge the Congress to respond quickly and creatively 
to give us some tools that we need in a very targeted way to 
help property owners and community leaders to bring back their 
communities.
    First and by far the most urgent is the need for grants. 
We've proposed a $60 million grant program that would be 
administered through the State Historic Preservation Offices 
that have real experience. Mississippi and Louisiana have two 
of the best State Historic Preservation Offices. They would 
have ideally a lot of discretion in how to give out these 
grants to fill out the gap in the financing needed for these 
recovery efforts, but there's a real urgent need for that.
    We would hope also that somewhere between $2 and $5 million 
of that money could be earmarked for main street 
revitalization. The National Trust is very proud to have had a 
main street program for the last 25 years to help business 
communities revitalize the downtowns and commercial areas, and 
there are a number of wonderful main street communities in this 
area.
    We also propose some changes to the historic tax credit 
that have been discussed: One, to extend it to include the 
owners of historic homes, and also to provide for some waivers 
and new provisions, most of which are fairly technical in 
nature, but which would make it easier to use the tax credit.
    I would just say that in answer to Mr. Dent's question 
earlier, the credits and the grants really are complementary to 
each other. In a sense they serve different constituencies, but 
they are really complementary in that the owners of low-income 
homes who find it very difficult to access the tax credit, but 
they could use the grants more easily, where as you go up the 
income scale, it's more useful to use the tax credits. In any 
case, this is a variety of tools, Mr. Chairman, we propose that 
we ask your serious consideration for. Thank you very much.
    [The prepared statement of Mr. Moe follows:]

    [GRAPHIC] [TIFF OMITTED] T5541.061
    
    [GRAPHIC] [TIFF OMITTED] T5541.062
    
    [GRAPHIC] [TIFF OMITTED] T5541.063
    
    [GRAPHIC] [TIFF OMITTED] T5541.064
    
    [GRAPHIC] [TIFF OMITTED] T5541.065
    
                 STATEMENT OF NORMAN L. KOONCE

    Mr. Koonce. Mr. Chairman, members of the subcommittee, good 
morning to you. My name is Norman Koonce. I'm the executive 
vice president and CEO of the American Institute of Architects. 
We greatly value the opportunity to appear before you here this 
morning for this very important subcommittee deliberation on 
significant historic preservation issues in the wake of these 
hurricanes.
    The American Institute of Architects represents 76,000-plus 
members, representing a large majority of the Nation's 
architects, with their collective staff, their firms 
professionally dedicated to creating and preserving 
environments that elevate and enrich the human experience, 
exceed a third of a million people. Their interest as well as 
that of the public everywhere is focused on what is happening 
and what will happen in New Orleans and the Mississippi gulf 
coast and south Louisiana.
    Something has come up since we presented our paper to you 
in writing that I think we should report on, and that is at the 
request of Lieutenant--excuse me, Louisiana Governor Blanco and 
with the encouragement by Lieutenant Governor Landrieu as well, 
the AIA is organizing and managing the Louisiana Recovery and 
Rebuilding Conference that will be convened November 10th-12th 
in New Orleans. We'll be joined by a very strong group of 
sponsors including the American Planning Association, the 
National Trust for Historic Preservation, the American Society 
of Civil Engineers and others who can address the issues that 
will be facing those who design the solutions in the near 
future.
    The purpose of the conference is to develop appropriate 
principles for use by each political jurisdiction to use in 
designing, planning and implementing redevelopment efforts. One 
major emphasis will be the appropriate stewardship of our 
architectural heritage in all of those areas, as it should be, 
and as that pertains to the discussion here this morning.
    I'd like to mention that we would be pleased to respond 
further to the issue of this conference in a Q-and-A period 
that follows in the event that you have additional interest in 
that.
    Concerning the why of preserving our historic past, I would 
say that the largest, most dense concentration of historic 
structures in America exists in New Orleans, characterized by 
scholar Pearce Lewis as the inevitable city on an impossible 
site. What a contradiction, but we all recognize that. It's a 
city that developed under many flags, ruled at least once by 
Spain, France, Great Britain and, of course, the United States. 
It was considered inevitable because of its strategic location 
that just can't be abandoned, obviously. But there's nothing 
else like it.
    Consider, too, that each of the other areas that have been 
treated so severely by the hurricanes convey their own cultural 
identities which are very important to them and to all of us. 
In fact, anthropologists tell us today that nothing better 
expresses a culture of a civilization than its architecture. It 
speaks to how people lived and, even more importantly, what 
values were important to them. It is those values that we must 
preserve and we must recognize in the process.
    We believe, along with the National Trust for Historic 
Preservation, that the Federal Government should provide those 
property owners who have been so crucially affected with a 
package of grants and tax incentives to leverage local dollars 
and attract outside investments that will enable the healthy 
and respectful building efforts that are required. We believe 
it is both affordable and greatly needed.
    Details are involved or included in the written testimony 
that we provided earlier. We'd be glad to discuss those more if 
necessary, but I think that Mr. Moe has done a good job in 
presenting those details.
    Mr. Chairman, members of the subcommittee, as a native of 
Louisiana, and an architect with the Committee for Historic 
Preservation, and one with the responsibility to represent the 
interests of all of our architects, we all thank you for 
focusing on this vital national issue.
    I'd like to close with a more personal note, sharing an 
example of the influence that historic architecture has had on 
each one of us in this room, whether we know it or not. Dr. 
Jonas Salk, the developer of the vaccine for polio, became a 
personal friend. He shared his experience with me that as he 
was discovering or attempting to discover the vaccine in the 
mid-1950's, he encountered one big problem after another, so he 
decided to take a respite from that work and to go to the 13th-
century village, the place where the people train to become 
ministers in the 13th-century village in Assisi. He was 
distancing himself from the frustration he felt.
    He shared this very important finding. He said the 
spirituality of the architecture in that setting was of such 
great inspiration to him, he was able to do intuitive thinking 
far beyond any he had ever done before. Under that influence, 
he said, I was able to intuitively design the research that 
resulted in the polio vaccine. He was indeed correct. We owe a 
debt of gratitude to the architecture in Assisi for that 
inspiration provided to him.
    He also provided a favorite admonition to us often; he 
said, we must all seek to become good ancestors for future 
generations. You have and we all have an opportunity to become 
good ancestors today by properly addressing the problem that 
relates to our historic past and our future. Thank you.
    Mr. Turner. Thank you very much.
    [The prepared statement of Mr. Koonce follows:]

    [GRAPHIC] [TIFF OMITTED] T5541.066
    
    [GRAPHIC] [TIFF OMITTED] T5541.067
    
    [GRAPHIC] [TIFF OMITTED] T5541.068
    
    [GRAPHIC] [TIFF OMITTED] T5541.069
    
    [GRAPHIC] [TIFF OMITTED] T5541.070
    
    [GRAPHIC] [TIFF OMITTED] T5541.071
    
    [GRAPHIC] [TIFF OMITTED] T5541.072
    
    [GRAPHIC] [TIFF OMITTED] T5541.073
    
    [GRAPHIC] [TIFF OMITTED] T5541.074
    
    [GRAPHIC] [TIFF OMITTED] T5541.075
    
    Mr. Turner. I appreciate your time with us here today, and 
recognizing that all of our panelists began their discussion 
with their personal tragedies of Katrina, and recognizing that 
historic preservation is a forward-thinking issue and 
obligation after we initially turn to the needs of the 
individuals impacted by the tragedy.
    A lot of the discussion in all of the written data that we 
have deals with issues of administration, deals with issues of 
existing programs or proposed programs, and some 
recommendations as to what we need to do. Normally whenever we 
have a hearing, we structure it first where the national 
experts or the representatives of the national governments 
speak first. In this instance, we flipped the normal structure 
of the hearing process so that we could hear from the people 
who were local, on the ground, facing these issues, and then 
we'll hear the national perspective from our national 
institutions and our national government so that you would have 
an opportunity to respond then to the information that you 
heard.
    When you prepared your written testimony, you might have 
been aware of some of the things that they were going to be 
saying, but having sat through the testimony of the first 
panel, I'm certain that each of you had some thoughts or ideas 
that related to what your proposals were, what your 
recommendations were, but also something you might want to 
embellish as a result of their comments.
    So I want to ask each of you to, if you would, in an open 
question give us some of your thoughts with respect to what you 
heard from the first panel, some of the things that you think 
were of value and of importance that we need to highlight, and 
how their comments relate to some of the things that you were 
speaking of before us today.
    I'll begin with you, Mr. Nau.
    Mr. Nau. Thank you, Mr. Chairman. I was struck by something 
the Lieutenant Governor said when he was asked about the 106 
process when he said it's probably not a process problem, that 
it's more a resource problem. And I reflect back to the 
discussions I had Friday when I was in New Orleans and with the 
FEMA and State and city people, and if you can picture a 
funnel, and in that funnel are all these 12 or more Federal 
agencies, the States involved, and where that funnel comes to a 
very narrow opening is the State Historic Preservation Office.
    All of those 106 reviews have to funnel through that one 
spot, and I can't imagine any State that has staffed up and 
planned for this level of disaster. And I would say from the 
Federal agency standpoint, the efficiency of being able to 
address all of the 106 reviews, whether it's the Corps of 
Engineers, FEMA has to do every one, Park Service, everyone is 
going to have to go through these 106.
    I think it should be the focus of the Federal effort right 
now to try to widen and put resources into the SHPO offices; 
obviously Louisiana, Mississippi, some to Alabama and some to 
Texas because of Rita's impact in the Beaumont, Port Arthur and 
east Texas area.
    So my big takeaway from what I saw Friday and what I heard 
from the Lieutenant Governor, I echo what he said, it's not a 
process problem. That process has worked very, very well for 40 
years. It's about resources. And if we don't address that, then 
I would suggest to you that the efficiency of the process is 
going to bog down, and then there will be cries against the 106 
process, when, in fact, it's simply going to be a resource 
issue. Thank you.
    Dr. Matthews. Thank you, Mr. Chairman.
    I would harken back to three or four things I heard very 
briefly. First is the value issue. Mr. Koonce, sitting to my 
left, grew up in Louisiana where the National Center for 
Preservation Technology and Training occurred. He cited Jonas 
Salk's influence in a monastery. He and at least one other very 
distinguished leader in historic preservation architecture grew 
up in this little town; probably not an accident that they 
among many others became professionals in this field because 
they were impacted by the place they came from.
    As you carry this forward from knowing on the ground the 
grass-roots influence, the long, long reaction of the kind of 
impact of living in a place where you connect and where the 
environment connects you to something that just happens because 
you're there, I would suspect you have convened this 
subcommittee hearing in part because you know this really 
matters.
    New Orleans is unique, is distinct. Forty years ago you all 
passed, your predecessors did, the National Historic 
Preservation Act, which established the SHPOs that John talked 
about, the 106 process, the identification of significant 
resources. That identification made it possible in this 
terrible crisis to go straight to those targeted areas. Whether 
they were significant or not, they defined the character of the 
places; the humble, the proud, the grand, the small, the 
neighborhood, the grandmothers' back houses, the houses we saw 
washed off foundations, which might be put back if they're not 
demolished first. The National Historic Preservation Act as 
defined by Congress in 1966 has made it possible 40 years later 
in a crisis no one anticipated to go in with a target, a target 
to use as a guide. The 106 process requires that they be taken 
into consideration.
    I heard on the radio this morning that children in New 
Orleans last night went trick-or-treating; some of them went as 
mold. Did you hear that? They're so impacted by this mold 
growing on everything that some of them last night dressed as 
mold.
    Second, following up on John, the economic benefit is that 
in Florida when I was State Historic Preservation Officer, we 
solicited proposals for a grant and found that $4.22 billion a 
year came directly back to the State of Florida in direct State 
revenues based on heritage tourism, historic sites, and 
everything that generates, and that is probably a lot more than 
you wanted to know about what I was thinking.
    Thank you, Mr. Chairman, for that opportunity.
    Mr. Moe. Mr. Chairman, what I heard from the earlier panel 
was what we've been hearing from these organizations and their 
spokesmen for months now. One of the things we do at the 
National Trust is to try to convene the State and local 
partners of the preservation movement in both the public and 
private sector as well as our national partners, and we came 
very quickly to a consensus, as I think you heard today, about 
the need for a Federal response. And it was very easy to start 
out using the example of the historic tax credit because, as 
has been said, that's such a successful vehicle. Its been 
responsible for the private investment of $38 billion in 
different projects in this country the last 20-some years.
    Where we had to be more creative was on the grant side. It 
used to be--when we went through the Mississippi River floods 
in 1993 and the Northridge earthquake the next year, FEMA had a 
discretionary fund that we were able to tap into for historic 
resources very easily and very effectively. Obviously the needs 
in those two instances and others were more limited, but 
somewhere along the line that fund disappeared. Therefore, we 
saw the need, particularly for a disaster of this scale, for a 
new major congressionally authorized grant program, because 
there is simply no substitute for getting dollars quickly into 
the hands of property owners to fill in the gap of financing 
this recovery.
    The other thing that I've learned was from Mitch Landrieu, 
Lieutenant Governor of Louisiana. I participated in a program 
with him some weeks ago in New Orleans, and he, I think has 
very effectively put together a program of using culture as a 
means of recovery in New Orleans. There is no city in America 
like New Orleans, not simply because of its architecture, but 
because of its unique culture. Jazz, gumbo, and architecture, 
that's what makes New Orleans. And that is the basis for the 
very effective historic tourism program that they have.
    And so it is not only important culturally to bring these 
properties back, but it is important for the economy of New 
Orleans to get the tourism economy going again.
    Finally, one of the things that I learned from my visits to 
both areas was that FEMA has been doing--in New Orleans has 
been doing a very effective job on the historic preservation 
front. They have very able leadership in the historic 
preservation front, and we've been working very closely with 
them on the 106 issues and so forth, which is critical to 
authorizing demolition by the city because they can't do it 
without Federal funds.
    One of the things I found in Mississippi was a great need 
for more FEMA engineers to help go out and do the surveys. 
There is a critical need for engineers to speed up this process 
so that a lot of these damaged properties don't disappear.
    Mr. Turner. Mr. Koonce.
    Mr. Koonce. One of the things that we've heard is that 
there are so many agencies in this country that can have a very 
positive effect on the outcome of this recovery effort, and I 
think we should all be extremely proud of the amount of intense 
effort and resources that are being put into that effort. They 
need help, and that was one of the things that I heard during 
the earlier presentation. We need to find a way to empower them 
to do what they're designed to do, capable of doing and want to 
do.
    There are more than just agencies who need to be equipped, 
however; there are the political jurisdictions, there are the 
individuals. Everybody has been so devastated by the 
overwhelming losses that took place here. And the thing that I 
think I also heard in most of the discussions is that 
leadership is required. All of the business entities and 
citizens, the political jurisdictions, are not going to 
magically start working in concert because there is a lot of 
talk about it. There are so many diverse solutions in the 
people's minds that we should go ahead and implement 
immediately because it is what needs to happen.
    But there is not just one solution, there are many 
solutions that need to be developed. Not all those solutions 
that are being discussed today I think you could consider to be 
totally good. So there is an obvious reflex that needs to be 
addressed. How do you address it? It is, independent of the 
American of Institute of Architects, the worst thing we can do 
is for everyone to suddenly just rebuild everything that they 
had before without consideration to whether it was the best 
solution then. I'm not talking in terms of the historic 
architecture. That which has endured for many, many years has 
earned its place in the environment of every city. But 
everything about our city has not been exactly as they should 
have been, and we need to give careful attention as to how we 
go about rebuilding, accommodating the interest of the business 
community, the citizens, a place for housing, a place to bring 
together people in the central business districts and to create 
more sustainable, livable, healthy and safe communities.
    I think that what we need to have is some conceptual 
guidepost, something that says here's the manner in which we go 
about addressing the problem. Now, that doesn't give you 
individual answers to every community's needs, every city's 
needs or every State's needs, obviously, but it does give a 
guidepost around which decisions can begin to be made that will 
yield the greatest benefit in the future.
    I guess when we start thinking about this rush to do 
something, we begin to be admonished by the statement, if we 
don't have time to do it right, when are we going to have time 
to do it over? And the same thing applies to the money; if we 
don't have the money to do it right, when are we going to find 
the money to do it over? So the admonition should be to all of 
us that we do it right, as right as we possibly can the first 
go-around, so we don't have these guessing efforts to contend 
with.
    Mr. Turner. That's an excellent saying. Thank you, Mr. 
Dent.
    Mr. Dent. Thank you, Mr. Chairman.
    Now Mr. Koonce, I noticed during your testimony you made 
reference to Dr. Pierce Lewis. You made a reference to Dr. 
Pierce Lewis in your remarks, from Penn State, the geographer. 
I thought you quoted him. He was my professor at Penn State 
University. I thought that was interesting. He was a great 
geographer, and I'm sure he had interesting comments on the 
city of New Orleans and why it exists where it does. Very 
interested man.
    My question to you, though, Mr. Koonce is this: If the 
legislative package that you propose is successful, it's going 
to take time for these Federal grants to get on the ground. 
Will they be likely too late for stabilization efforts?
    Mr. Koonce. I'm having difficulty hearing you. I'm sorry.
    Mr. Dent. If the legislative package that you have proposed 
here today, if it's successful, it is going to take time for 
those grants to get on the ground. Will they likely be too late 
for stabilization efforts?
    Mr. Koonce. I'm not sure that it's going to be so quickly 
solved that it would not be possible for the tax credits and 
the other issues that you may be promoting to be used. Maybe 
there is some effort that could be exerted in the interim that 
would help people to make decisions, particularly when property 
ownership is a problem, that they can't meet the demands all at 
this point in time. I really don't have an answer to that.
    I guess it's the prerogative of architects to look at the 
longer-term solution, and we will look to those who have the 
knowledge of the disbursement of money from the Federal 
Government to come up with a manner that can get it into the 
hands at the earliest possible time.
    Mr. Dent. Mr. Moe, a question for you. You mentioned a few 
moments ago that about $3.8 billion in private investment has 
been leveraged by the historic preservation tax credit.
    Mr. Moe. It was $38 billion.
    Mr. Dent. $38 billion; I'm sorry. I thought I heard $3.8.
    OK. Are you aware of any studies indicating how much 
private investment could be leveraged by extending these tax 
credits to private homeowners?
    Mr. Moe. No. We don't have specific recent information. I 
think there are some studies that we undertook some years ago, 
and we would be happy to provide those to you. But there is no 
question but that if the experience of the existing tax credit 
is any indication, there is a very high leveraging ratio. I 
can't give you a specific number.
    But what is so attractive about the existing tax credits is 
that it usually is the last piece that's needed to fill in the 
financing gap for these redevelopment projects. And it's an 
indispensable piece, because what they've done is they've 
basically tapped out the private markets.
    I think the same concept would apply with homeowners, where 
they have some insurance, they have some mortgage ability, some 
other means, but they don't have the total amount needed to 
restore their houses. So I think the same principle would 
apply.
    Mr. Dent, if I may respond to a question briefly that you 
asked Mr. Koonce. If the Congress authorized the grants 
immediately, there is no question they could be dispensed in 
very short order because the State Historic Preservation 
Offices are equipped, ready, and manned to dispense these 
grants. Our fear is that the Congress may not act until 
December, and hopefully they will act, but not before then. 
There is some risk that there will not be enough stabilization 
money between now and then to save some of these at-risk 
properties.
    The National Trust has set a goal of raising at least $1 
million, hopefully a lot more, most of which we will be giving 
out in the form of stabilization grants and pilot projects in 
both Mississippi and New Orleans, but this will not address the 
full need of stabilization. So there is a real urgency behind 
the need for these grants.
    Mr. Dent. Thank you.
    Mr. Turner. To expand on Mr. Dent's question, one of the 
important opportunities that rebuilding the gulf area presents 
to us is to look at some of the economic development tools, the 
urban redevelopment tools, historic redevelopment tools that 
we've all talked about but have not yet been able to implement, 
that we could on a pilot basis place in the gulf area and 
determine their effectiveness. The historic homeowner 
assistance tax credit has been one that many people have 
discussed. It's in the recommendations from Mr. Koonce in the 
Historic Trust, and you were speaking about it briefly, Mr. 
Moe. I wanted to open it broadly to other members of the panel 
to talk about the opportunity of the historic homeowners 
assistance tax credits.
    And I'm going to begin with you, Mr. Koonce, since you have 
a specific proposal that's outlined in your recommendations. We 
are talking about the historic homeowner assistance tax credit 
recommendation that's in your comments. If you can talk about 
the specifics as to how your recommendation, you would see this 
working. And then if the other members could talk about how 
this could fill a need that currently is not present and might 
be an economic development tool and, again, something that we 
could try on a pilot basis that we see as a need throughout 
many communities in the country.
    Mr. Koonce.
    Mr. Koonce, I know you are having difficulty hearing us. In 
your testimony you begin in the section dealing with historic 
preservation disaster assistance package of outlining several 
elements, one of which would be the historic homeowners tax 
credit.
    Mr. Koonce. This package is put together as a partnership 
between the National Trust Historic Preservation and the 
American Institute of Architects. I have been involved to a 
greater extent in looking at the conference that I mentioned to 
you a moment ago, but I am confident that my good friend, Mr. 
Moe, is going to be able to address that much better than I. So 
I think in the interest of expediency I would defer to him.
    Mr. Moe. Mr. Chairman, the proposal that we've put before 
the Congress is for a 30 percent credit against qualified 
expenditures for the restoration of historic homes. This would 
provide a very significant gap in the funding that I talked 
about earlier.
    What is unanswered here, and which we must deal with, is 
the administration of these tax credits. We do have an existing 
infrastructure in both the National Park Service and in the 
State Historic Preservation Offices for administering the 
existing tax credit, and that's assumed by everyone, I think, 
that same infrastructure would be used for these credits. 
However, because the amounts are so much lower, we have to take 
a real look at the transaction costs involved and whether or 
not they're realistic and reasonable in the context of the work 
being done. So we don't have all the answers there, but we hope 
that we can get a focus to answer those questions. But there is 
no question that it can be uniquely helpful.
    Mr. Turner. Mr. Nau, Ms. Matthews, either one of you wish 
to comment on historic homeowners tax credits?
    Dr. Matthews. I can only comment that the administration 
hasn't taken a position on the tax credit and set of waivers, 
so I can't comment at this time, Mr. Chairman.
    Mr. Turner. Thank you.
    Mr. Nau. The ACHP endorses this concept because we feel 
that it would be an effective way to stimulate the 
rehabilitation of these historic owner-occupied properties; 
trying to predict what the economic impact of that is, I think, 
is what Dick has said is very difficult. But based on that, 
that's been in the available commercial historic properties, it 
only says that success breeds success. And this kind of a 
concept I think provides a hand to private property owners that 
says the government is with you if you're willing to go back 
and rebuild it and preserve it. So I applaud the National Trust 
and AIA for taking this lead. Thank you.
    Mr. Turner. Mr. Koonce, in your written testimony and in 
your presentation, you talked of the issue of the conference 
that's upcoming. It certainly is a wonderful opportunity to 
garner resources, specifically at the issues of what needs to 
be done with respect to the gulf area and historic 
preservation.
    What are some of the issues that you expect to be 
highlighted and to come out of the conference that might be 
helpful to us in the future?
    Mr. Koonce. Thank you. That is more in my area of 
knowledge, which I can----
    Mr. Turner. I thought I'd help you out.
    Mr. Koonce. Thank you. Well, you might say that there has 
been a totally separate effort in the gulf coast of Mississippi 
that has been produced by the Congress of New Urbanism and some 
of their people who subscribe to those philosophies of design 
of communities. They have obviously done a thorough job there, 
and are to be commended. I'm sure that one solution is not 
going to fit all of the communities there in Mississippi and 
our gulf coast.
    On the other hand, the conference that is to be conducted 
in just 10 days I guess, or less, beginning in New Orleans, is 
the conference for recovery and rebuilding in Louisiana. So the 
outlook is very diverse there, looking at not only the city of 
New Orleans, but other smaller communities, and those that are 
almost isolated that are down on the very gulf coast like 
Cameron and other cities.
    What will happen is that we will convene a group of very 
qualified people in a number of different areas of expertise. 
There will be architects, engineers, there will be planners, 
there will be historians, there will be economists, there will 
be psychologists. There will be those who can orchestrate 
discussions of great intensity while recording electronically 
and enabling opportunities for people to respond electronically 
to all of the issues that are on their mind.
    The audience or the group of participants for that 
conference will be leaders from every jurisdiction, every 
community, every city, every parish that's affected in the 
State; they will come to represent the interests of their own 
section of Louisiana and to be informed about what there is 
that they can take home with them.
    The process will be on the first day to discuss a number of 
very important principles and designs considering elements of a 
design and planning of their communities that must be given 
strong consideration, and looking at the characteristics of 
solutions that can be derived in each of those cases. All of 
the folks will be seated around tables, some 500 to 600 
participants, able to respond immediately to their thoughts 
about the applicability of those principles in their own 
communities.
    So we will be able to help them record what they generally 
are thinking throughout the entire conference.
    In addition, however, to giving the general principles on 
the first day by qualified experts and having feedback, on the 
second day we will be bringing people into their own 
characteristic groups, having them discuss small-city issues 
among small-city representatives. Larger-city issues will be, 
in like manner, separated from the entire discussion.
    Toward the end of the conference there will be recaps, of 
course, every day. But there will be a final one that says 
here's what we've learned about the redesign of your cities, of 
your communities, of your parishes. There will be some folks 
then that can give the picture about how they will be able to 
work with those who are commissioned to actually lead the 
planning and redesign of their communities, letting them be 
good clients because they will know what is important to them 
based on the 3 days of discussion that they've had in a very 
intense sharing of the best principles for creating communities 
that are sustainable, that are healthy, that are safe, that are 
properly integrated with all the other elements of the 
communities.
    So we are trusting that those 500, 600 people, who will be 
a tremendous core for good design, to leave that place 
responding to the concepts that have been mentioned and created 
and substantiated and agreed to by them as the elements of the 
relationship that will exist between them and the firms or the 
groups of people who are establishing the responsibility for 
redesign of their communities.
    Mr. Turner. Thank you. Although I have a background in law, 
my background in the legal profession is not one of a 
litigator. Litigators have a greater sensitivity to the issue 
of a transcript and what the final document that comes out of a 
hearing looks like. Having done now, this year, chaired the 
subcommittee, I'm getting a greater sensitivity to the issue of 
a transcript and what's in it and what is not, and having 
looked at some of these hearings and reflected on what we had 
hoped would be in the text of the hearing by the people who 
have testified.
    Because of that, I want to give each of you an opportunity 
to give us, if you will, a commercial. We have, from each of 
you, the greatest resources of national experts before us on 
the issue of historic preservation. And one thing I don't want 
to have missed in the transcript when we turn back to this is 
the issue of why is this issue today important; why is it 
important that we even look to what we need to be doing in 
historic preservation in the face of this large natural and 
national disaster? So if you would each take a moment and 
provide us that text example of why this is important to us as 
a country.
    Mr. Nau.
    Mr. Nau. I think that's the most important question when 
you address historic preservation issues is why are you going 
to preserve them? In one context, it's about heritage, it's 
about community values. If you look at whether it's the 
National Park System or county and State-owned assets, it is 
about the accumulated experiences of who we are as a people. 
You only are able to feel that by having a sense of place. And 
if these places are destroyed, you lose the ability to connect 
to that accumulation of values. That's the hard one to get our 
arms around.
    The easy one for me as a businessman is the economic 
development aspects of heritage tourism that many of the 
witnesses today have talked about. There is--someone in the 
first panel said this is ground zero for heritage and cultural 
assets. The tourism industry there was not all about just 
gumbo, it was about these places all across that gulf coast. 
And to walk away from the preservation of these assets is to 
walk away from an industry also hit with the oil and gas. The 
petrochemical industries were hurt. We would not walk away from 
those industries. And here I would submit to you the economic 
development, the future of heritage tourism is in the 
collective hands of the States, the Federal Government and the 
cities and the citizens. It's economic development as much as 
it is the soft side of values and community history. Thank you.
    Mr. Turner. Ms. Matthews.
    Dr. Matthews. Thank you, Mr. Chairman.
    Ditto to everything he said. On top of which, as a 
historian, the National Historic Sites Act of 1935, passed by 
you all, was established for the purpose of benefiting, 
inspiring, and educating the Nation as a whole. As a result, we 
have 2,500 National Historic Landmarks, many of which lie in 
the area we've talked about this morning and you have so 
generously given time to talk about this morning.
    The 1966 National Historic Preservation Act, which I think 
of as the blue collar Congress, the Congress largely educated 
by the G.I. bill as the first people in their families who had 
the opportunity to go to college, and came back and said I 
think neighborhoods are important. As a Congress we think that 
back yards are important, we think that the context of history 
is important, which is what we've talked about all morning, the 
context of a very neat place in a dire situation because of a 
catastrophic event.
    The 1966 act resulted in 80,000 National Register listings 
which represent 1.4 million properties. So our job is to carry 
forward for future generations the sense of what has kept many 
of us, thanks to your generous use of your time, in this room 
for a long time, things that really matter to us, and if we can 
put a face on our own minds and experiences and those of all we 
know regarding a sense of place in this great Nation.
    So while the children who dressed last night as mold--that 
grows on wet buildings, that can be handled properly with 
professional application--well, the children who dressed up as 
mold last night, and the little girl on the same radio report 
who put a blue tarp over her Barbie dollhouse because she 
wanted it to be protected and not demolished, will those 
children walk away 15 years from now with a sense of a Nation 
that could rebuild a city or the sense of a Nation that could 
not?
    Mr. Moe. Mr. Chairman, I think there are at least three 
primary reasons why it's important, if not essential, to save 
these historic places. No. 1, it does represent our shared 
heritage. It's obviously an important part of the heritage of 
New Orleans and the Mississippi gulf coast. But this is 
America's heritage, too. It tells an important part about who 
we were, where we've come from, and hopefully where we're 
going. The heritage is enormously important.
    As has been said, it is also important because of the 
economic development opportunities it provides in terms of 
employment, in terms of the overall recovery effort, and 
especially in terms of the heritage tourism opportunities that 
it presents.
    And third, it's important because of the concept of 
community. Too often, I'm afraid, preservationists are accused 
of focusing on the need to save buildings without the human 
dimension. Well, here's an instance where the human dimension 
is front and center and must be front and center. All of these 
buildings that are damaged are somebody's homes, small 
businesses, places of worship. These people need these places 
to maintain and come back to their communities. If not, those 
communities are gone. In New Orleans, for example, 18 of the 20 
historic districts are what I would call vernacular 
neighborhood districts; for the most part, middle and lower-
income neighborhoods filled with Creole cottages, shotgun 
houses, corner stores. These are the places that are in the 
greatest need of assistance, and that is because they are 
essential to what the residents of those communities view as 
their communities.
    Mr. Turner. Mr. Koonce.
    Mr. Koonce. The American Institute of Architects and some 
of its related partners is on the brink, I think, of 
discovering some amazing things about the power of architecture 
in each of our lives. Our surroundings, they are determining--
the newer scientists who are working with us are--that 
surroundings have a great deal to do with our sense of well-
being, our cognitive skills, our ability to do creative and 
conceptual thinking, and to do conflict resolution and 
negotiation are all very important issues. It has to do with 
longevity of our life.
    It's impossible to say at this point in time that there is 
a direct correlation between historic architecture and that 
which is not, and this theory that's being projected. But it is 
appropriate to say that we have historic buildings because they 
have endured for a reason. Many other buildings have been built 
in the past that have been just simply done away with because 
they did not have this ability to inspire, or they did not meet 
the needs of accommodation that were prescribed in their 
design. Subsequently, I think we need to think about the reason 
we still have them. They do represent all of those interests in 
our culture, in our values and our past that Mr. Moe mentioned 
just a moment ago. But it's important to think about those 
buildings that have survived because of the effect they have on 
each one of us in our daily life, and I think that's a very 
important criteria.
    The other thing is that it was mentioned earlier that we do 
have process, and that's not the big issue, and I agree with 
that; but there is such a mad rush in some corners to just go 
ahead and tear down and rebuild, that if we don't provide the 
revenues or the money that is necessary to properly invoke the 
processes that we have, I'm afraid we will be losing some 
things in the interim that we really will regret having lost.
    We need to think in terms of private ownership as well. A 
lot of the privately owned historic buildings are going to be 
more difficult for individuals to restore and to maintain than 
those that are publicly owned or owned by large associations. 
So it's another issue that it's important for us to act quickly 
on this entire issue.
    Mr. Turner. Thank you.
    Well, before we adjourn, I want to give anyone who has 
anything they would like to add to the record or has a question 
that we have not asked that they wanted to contribute, to give 
any closing remarks. It is really not required that anybody 
provide closing remarks, but at this time, if you did have any 
items that you wanted to bring to our attention or include in 
the record, I wanted to give you that opportunity. Does anyone 
have anything they want to add before we adjourn?
    Mr. Moe. Mr. Chairman, I would just like to thank you for 
your holding this hearing and raising the visibility of these 
issues because we hope what these panels have had to say will 
have an impact on the jurisdictional committees that will be 
considering some of these issues going forward. Thank you very 
much.
    Mr. Turner. Mr. Nau.
    Mr. Nau. Let me echo Mr. Moe. And one thought that I would 
like to put on the record: Right now FEMA does not have the 
ability to fund either the SHPO offices or bring some of these 
resources to bear. Mr. Moe referenced that earlier in the 
grants program. We would recommend that you all really look 
into that and reconsider it. They're on the ground, they have 
the ability and knowledge, whether it's this disaster or the 
next one. They need to be able to try to bring those resources 
to bear quickly, and right now they can't do it. But thank you 
for your leadership in this, sir.
    Mr. Turner. Thank you. That was an excellent point 
concerning FEMA's authority.
    I would like to thank each of you for participating today 
and thank you for your continued efforts as you impact our 
Nation on this important issue. And I'd like to thank my 
colleagues for participating today.
    The National Preservation Act of 1966 put in place a 
workable infrastructure for Federal, State, and local 
governments and nongovernmental organizations to partner in 
historic preservation efforts, but as we have heard today, more 
can be done. Today's witnesses testified, along with their 
recommendations, on how Congress can adapt that infrastructure 
to better respond to Katrina and future disasters. This will 
provide us invaluable information as we make key policy 
decisions on this subject.
    In the event that there may be additional questions, the 
record will remain open for a period of 2 weeks for submission 
of additional questions. We would appreciate if you would be 
kind enough to answer them if we receive them from members.
    With that, we thank you all, and we'll be adjourned. Thank 
you.
    [Whereupon, at 12:29 p.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T5541.076

[GRAPHIC] [TIFF OMITTED] T5541.077

[GRAPHIC] [TIFF OMITTED] T5541.078

                                 <all>

</pre></body></html>
